<html>
<title> - UNDERSTANDING THE ROLE OF CONNECTED DEVICES IN RECENT CYBERATTACKS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








   UNDERSTANDING THE ROLE OF CONNECTED DEVICES IN RECENT CYBERATTACKS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                AND THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2016

                               __________

                           Serial No. 114-175



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-438 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          


























                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. McKINLEY, West Virginia     BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Ohio                   KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina     Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                  (ii)
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          YVETTE D. CLARKE, New York
GREGG HARPER, Mississippi            JOSEPH P. KENNEDY, III, 
BRETT GUTHRIE, Kentucky                  Massachusetts
PETE OLSON, Texas                    TONY CARDENAS, California
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            PETER WELCH, Vermont
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
FRED UPTON, Michigan (ex officio)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     2
    Prepared statement...........................................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     5
    Prepared statement...........................................     6
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    80
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    81

                               Witnesses

Dale Crew, Senior Vice President and Chief Security Officer, 
  Level 3 Communications.........................................     9
    Prepared statement...........................................    12
Bruce Schneier, Fellow, Berkman-Klein Center at Harvard 
  University, and Lecturer and Fellow, Harvard Kennedy School of 
  Government.....................................................    17
    Prepared statement...........................................    20
Kevin Fu, Ph.D., Chief Executive Officer, Virta Laboratories, 
  Inc., and Associate Professor, Department of Electrical 
  Engineering and Computer Science, University of Michigan.......    26
    Prepared statement...........................................    28

                           Submitted Material

Statement of Craig Spiezle, Executive Director and President, 
  Online Trust Alliance, November 16, 2016, submitted by Mr. 
  Burgess........................................................    83
Letter of November 15, 2016, from Kyle Pitsor, Vice President, 
  Government Relations, National Electrical Manufacturers 
  Association, to Mr. Walden, et al., submitted by Mr. Burgess...    92
Statement of the College of Healthcare Information Management 
  Executives and the Association for Executives in Healthcare 
  Information Security, November 16, 2016, submitted by Mr. 
  Burgess........................................................   121
Statement of the Advanced Medical Technology Association, 
  November 16, 2016, submitted by Mr. Burgess....................   125
Statement of Gary Shapiro, President and Chief Executive Officer, 
  Consumer Technology Association, November 16, 2016, submitted 
  by Mr. Burgess.................................................   126

 
   UNDERSTANDING THE ROLE OF CONNECTED DEVICES IN RECENT CYBERATTACKS

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                  House of Representatives,
      Subcommittee on Communications and Technology
                             joint with the
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in Room 2175, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the Subcommittee on Communications and Technology) 
presiding.
    Members present: Representatives Walden, Burgess, Lance, 
Latta, Barton, Shimkus, Blackburn, Guthrie, Olson, Kinzinger, 
Bilirakis, Johnson, Long, Ellmers, Brooks, Mullin, Collins, 
Pallone (ex officio), Schakowsky, Eshoo, Rush, DeGette, Matsui, 
McNerney, Welch, Lujan, Loebsack, and Kennedy.
    Staff present: Grace Appelbe, Staff Assistant; James 
Decker, Policy Coordinator, Commerce, Manufacturing and Trade; 
Paige Decker, Executive Assistant; Graham Dufault, Counsel, 
Commerce, Manufacturing, and Trade; Blair Ellis, Digital 
Coordinator/Press Secretary; Melissa Froelich, Counsel, 
Commerce, Manufacturing, and Trade; Gene Fullano, Detailee, 
Communications and Technology; Giulia Giannangeli, Legislative 
Clerk, Commerce, Manufacturing, and Trade, and Environment and 
the Economy; A.T. Johnston, Senior Policy Advisor; Grace Koh, 
Counsel, Communications and Technology; Paul Nagle, Chief 
Counsel, Commerce, Manufacturing, and Trade; Dan Schneider, 
Press Secretary; Olivia Trusty, Professional Staff Member, 
Commerce, Manufacturing, and Trade; Gregory Watson, Legislative 
Clerk, Communications and Technology; Jessica Wilkerson, 
Professional Staff Member, Oversight and Investigations; 
Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; Jeff Carroll, Democratic Staff 
Director; David Goldman, Democratic Chief Counsel, 
Communications and Technology; Lisa Goldman, Democratic 
Counsel; Elizabeth Letter, Democratic Professional Staff 
Member; Jerry Leverich, Democratic Counsel; Lori Maarbjerg, 
Democratic FCC Detailee; Dan Miller, Democratic Staff 
Assistant; Caroline Paris-Behr, Democratic Policy Analyst; Matt 
Schumacher, Democratic Press Assistant; and Ryan Skukowski, 
Democratic Senior Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I will call to order the Subcommittee on 
Communications and Technology in our joint committee hearing 
with the Subcommittee on Commerce, Manufacturing, and Trade.
    Good morning, everyone. I will start with opening 
statements for our side and for our subcommittee, and then I 
think we go back and forth. So we will work this out.
    I want to thank the two subcommittees for coming together 
on this very important topic that I think we all share a deep 
concern about.
    We live in a world that is increasingly connected. Our 
smartphones are now capable of locking and unlocking our front 
doors at home, turning on lights, checking the camera for 
packages left on the doorstep. We are able to measure our 
steps, check our baby monitors, record our favorite programs 
from wherever we have connectivity. We will soon be able to 
communicate--or, excuse me, we can communicate with our 
offices, too--but commute to our offices in driverless cars, 
trains, buses, have our child's blood sugar checked remotely, 
and divert important energy resources from town to town 
efficiently.
    These are incredible potentially life-saving benefits that 
our society is learning to embrace, but we are also learning 
that these innovations do not come without a cost. In fact, 
recently we encountered a denial of service attack on a scale 
never before seen. This attack effectively blocked access to 
popular sites like Netflix and Twitter by weaponizing unsecured 
network connected devices like cameras and DVRs. Once these 
devices came under the command and control of bad actors, they 
were used to send a flood of DNS requests that ultimately 
rendered the DNS servers ineffective. As I understand it, at 
the beginning of this attack it was virtually impossible to 
distinguish malicious traffic from other normal traffic, making 
it particularly difficult to mitigate against attack.
    So how do we make ourselves more secure without sacrificing 
the benefits of innovation and technological advances? A knee-
jerk reaction might be to regulate the Internet of Things. And 
while I am not taking a certain level of regulation off the 
table, the question is whether we need a more holistic 
approach. The United States cannot regulate the world. 
Standards applied to American-designed, American-manufactured, 
American-sold devices won't necessarily capture the millions of 
devices purchased by the billions of people around the world, 
so the vulnerabilities might remain.
    Any sustainable and effective solution will require input 
from all members of the ecosystem of the so-called Internet of 
Things. We will need a concerted effort to improve not only 
device security, but also coordinate network security and 
improve the relationships between industry and security 
researchers. We are all in this thing together and industry, 
Government, researchers, and consumers will need to take 
responsibility for securing this Internet of Things.
    So today we will hear from a very distinguished panel of 
witnesses on some of the approaches that can be brought to bear 
on this challenge. My hope is that this hearing will help to 
sustain and accelerate conversations on our collective security 
and foster the innovation that makes the Internet the greatest 
engine of communications and commerce the world has ever seen.
    So I thank our witnesses for being here. We appreciate your 
willingness to come and share your expertise. It is very 
helpful in our endeavors, and I look forward to your testimony.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning. We live in a world that is increasingly 
connected. Our smart phones are now capable of locking and 
unlocking our front doors at home; turning on lights; and 
checking the camera for packages left on the doorstep. We are 
able to measure our steps; check our baby monitors; and record 
our favorite programs from wherever we have connectivity. We'll 
soon be able to commute to our offices in driverless cars, 
trains, and buses; have our child's blood sugar checked 
remotely; and divert import energy resources from town to town 
efficiently.
    These are incredible, potentially life-saving benefits that 
our society is learning to embrace, but we are also learning 
that these innovations do not come without cost. This past 
month, we encountered a Denial of Service attack on a scale 
never before seen. This attack effectively blocked access to 
popular sites like Netflix and Twitter by weaponizing unsecured 
network-connected devices like cameras and DVRs. Once these 
devices came under the command and control of bad actors, they 
were used to send a flood of DNS requests that ultimately 
rendered the DNS servers ineffective. As I understand it, at 
the beginning of this attack it was virtually impossible to 
distinguish malicious traffic from other normal traffic, making 
it particularly difficult to mitigate against the attack.
    How do we make ourselves more secure without sacrificing 
the benefits of innovation and technological advances? The 
knee-jerk reaction might be to regulate the Internet of Things, 
and while I am not taking that off the table, the question is 
whether we need a more holistic solution. The United States 
can't regulate the world. Standards applied to American-
designed, American-manufactured, or American-sold devices won't 
capture the millions of devices purchased by the billions of 
people around the world.
    Any sustainable and effective solution will require input 
from all members of the ecosystem for the so-called ``Internet 
of Things.'' We'll need a concerted effort to improve not only 
device security, but also coordinate network security and 
improve the relationship between industry and security 
researchers. We're all in this together and industry, 
Government, researchers, and consumers will need to take 
responsibility for securing the Internet of Things.
    Today we'll hear from a panel of distinguished witnesses on 
some of the approaches that can be brought to bear on this 
challenge. My hope is that this hearing will help to sustain 
and accelerate conversations on our collective security and 
fostering the innovation that makes the Internet the greatest 
engine of communcations and commerce the world has known. I 
thank the witnesses for their willingness to come and share 
their expertise. I'm looking forward to your testimony.

    Mr. Walden. At this time, I would yield to Mrs. Blackburn 
for an opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I also want to welcome our witnesses, and we appreciate 
your time. You know, we did an Internet of Things hearing in 
March 2015, and at that point I talked a lot about the 
convenience that this brings to us in our daily lives and about 
the opportunities that it will open for us. I think now as we 
look at it, as the chairman said, you look at the cost, you 
look at the maximized use that exists. I think that by 2020, 
the expectation is 3.4 billion devices that would be in this 
universe of connected. That means we have vulnerabilities that 
exist, entry points, and we will want to discuss some of those 
vulnerabilities with you today, get your insight, and see how 
we as policymakers work with this wonderfully exciting, 
innovative area in order to make certain that Americans have 
access, but they also know that there is, as the chairman said, 
security as we approach this.
    And with that, Mr. Chairman, I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time. I will yield back the balance of my time as well.
    We will now turn to my friend from California, the 
gentlelady Ms. Eshoo, for opening comments.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman.
    First of all, I want to express our collective thanks from 
this side of the aisle to you for responding to our request to 
have this hearing. Mr. Pallone, Mr. McNerney, Ms. Schakowsky, 
Ms. DeGette, and myself all made the request, and we are 
grateful to you for holding the hearing, because we think that 
this is, obviously, a very large issue and something that 
concerns the American people.
    In fact, Americans are connecting more devices to the 
Internet than ever before. Most of us carry at least one in our 
pocket, but as technology evolves, we are seeing a 
proliferation of everyday items and appliances that connect 
online. This is good. Today, everything from washing machines 
to light bulbs are now capable of connecting to the Internet. 
The business world also relies more and more on the Internet, 
in fact, Internet-enabled objects, to drive their efficiencies 
to produce lower cost.
    There are as many as 6.4 billion--billion with a B--
Internet of Things products in use worldwide just this year. 
The growth in this market is expected to be significant, 
including estimates of over 20 billion Internet-enabled 
products connected worldwide by 2020. So this is not a small 
market. It makes it a very large issue. It is an economic one, 
and we don't want to damage that, but it is something that 
needs our attention.
    There is great potential for innovation as more devices 
become connected, but there is also the potential for serious 
risk if they are not properly secured. That is really what we 
are pursuing here. We need to look no further than the major 
attack on October 21st that crippled some of the most popular 
Web sites and services in our country. The distributed denial 
of service attack against Dynamic Network Services, known as 
Dyn, was made possible by unsecure Internet of Things devices 
that attackers were able to infect with malware. This army of 
devices was then harnessed by the attackers to bring down Dyn's 
servers. Similar attacks in October targeted a journalist and a 
French cloud services provider.
    These attacks raise troubling questions about the security 
of Internet-enabled devices and their potential to be used as 
weapons by cyberattackers. For example, it has been reported 
that some devices used in these attacks may have lacked the 
functionality to allow users to change the default username and 
password. We already know that an important way to prevent 
cyberattacks is to practice good cyberhygiene, which includes 
changing default usernames and passwords. When products lacking 
the commonsense functionality are manufactured, shipped, and 
eventually connected, they put users and the Internet as a 
whole at risk. So it seems to me that this is an area that we 
need to explore with our witnesses.
    There is also the issue of how long these unsecured devices 
can remain in use. The Dyn attack reportedly used infected 
devices that were first manufactured as early as 2004. 
Manufacturers may no longer update products that have been in 
use for so long, further exposing users and the Internet to 
security risks.
    Finally, we have to recognize that this is a global issue. 
Level 3 Communications estimates that a little more than a 
quarter of these devices infected with the malware that was 
used in the Dyn attacks are located in the United States. One 
of the major manufacturer of products that appear to be 
particularly vulnerable is based in China. This is important to 
keep in mind as we explore how to address this problem going 
forward.
    So this hearing, I think, is a very important step in 
helping us, first of all, to all understand what lessons we 
should take away from these recent attacks. The Internet of 
Things offers exciting possibilities for innovation, but we 
can't afford to ignore the risks that come when devices are 
designed without security.
    Whatever the ultimate solution is, I think industry must 
play a central role in the effort to address these issues, and 
I look forward to hearing from our witnesses today. You play a 
very important role in this.
    So, with that, thank you again, Mr. Chairman, for allowing 
this hearing to take place, and I yield back the balance of my 
time.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    The Chair now recognizes the gentleman from Texas, Dr. 
Chairman Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. And good morning to 
our witness panel today. Thank you, Mr. Chairman, for holding 
the hearing and allowing us to have this discussion about the 
recent cyberattacks.
    Several popular Web sites were knocked offline for several 
hours on October 21 of this year. Hackers used malware to 
create a botnet, sort of a gargantuan, amorphous mass of 
connected devices, to flood a domain server with terabytes of 
traffic, overwhelming the system and preventing legitimate 
traffic from accessing those devices.
    In this case, the result was brief, but the outages were on 
consumer-facing Web sites. The incident is unique in that it 
wasn't someone's desktop or laptop, but it was the armies of 
compromised devices that launched these attacks without the 
knowledge of the device owners. Many of the devices are regular 
household items, such as baby monitors, DVRs, Web cams. And 
many consumers do not realize they do need strong 
cyberprotections on even these everyday devices.
    But that is exactly why this attack and others like it has 
been so successful. The malware that created this botnet spread 
to vulnerable devices by continuously scanning the Internet for 
Internet of Things systems protected only by the factory 
default manually generated usernames and passwords.
    The balance between functionality and security is not going 
to be resolved in the near term. Consumers want the newest and 
fastest device, they want it as soon as possible, and they have 
not employed adequate security protections. In fact, the most 
common password is the word ``password.'' The culture 
surrounding personal cybersecurity must change to ensure that 
the Internet of Things is not vulnerable to a single insecure 
device.
    The Subcommittee on Commerce, Manufacturing, and Trade has 
explored cybersecurity through a number of hearings, including 
our Disrupter Series. Cybersecurity, the issue of cybersecurity 
has been raised and discussed at each of these hearings. The 
Government is never going to be big enough to have the manpower 
and the resources to address all of these challenges as they 
come up, which is why it is so important and why I am grateful 
that we have industry here today to discuss this with us, 
because they must take the lead.
    Recent attacks present a unique opportunity to examine the 
scope of the threats and the vulnerabilities presented by 
connected devices and to learn how stakeholders are considering 
these risks throughout the supply chain, as well as how 
consumers are responding in the market. We have learned about a 
number of best practices and the standard-setting projects that 
are ongoing with various groups.
    It is an exciting time. And the growth of interconnected 
device, the growth of the Internet of Things, it is really 
going to be life-changing in so many industries, but we also 
need to see meaningful leadership from industry about how to 
address these real challenges.
    Again, I want to welcome our witnesses, and then I am 
pleased to yield the balance of my time to the gentleman from 
Ohio, Mr. Latta.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning and welcome to our joint hearing examining 
recent cyber-attacks. Several popular Web sites were knocked 
offline for a couple of hours on October 21, 2016. Hackers used 
malware to create a botnet, or massive group of compromised 
connected devices, to flood a domain server system with 
terabytes of traffic, overwhelming the system and preventing 
the server from responding to legitimate traffic.
    In this case, the result was brief outages on consumer 
facing Web sites. However, the incident is unique in that it 
utilized armies of compromised devices, rather than computers 
and laptops, to launch attacks without the knowledge of device 
owners. Many of these devices are everyday household items--
such as baby monitors, DVRs, and webcams--that many consumers 
do not realize need strong cyberprotections.
    But that is exactly why this attack, and others like it, 
has been successful. The malware that created this botnet 
spread to vulnerable devices by continuously scanning the 
Internet for Internet of Things systems protected only by 
factory default or manually generated usernames and passwords.
    The balance between functionality and security is not going 
to be resolved in the near term. Consumers want the newest and 
fastest device as soon as possible, but they have not employed 
adequate security protections. In fact, the most common 
password is the word password. The culture surrounding personal 
cybersecurity must change to ensure the Internet of Things is 
not vulnerable to a single insecure device.
    The Subcommittee on Commerce, Manufacturing, and Trade has 
explored cybersecurity throughout a number of hearings, 
including our Disrupter Series.
    Cybersecurity has been raised and discussed at each of 
these hearings. Government is never going to have the man power 
or resources to address all of these challenges as they come 
up-which is why we need industry to take the lead.
    Recent attacks present a unique opportunity to examine the 
scope of the threats and vulnerabilities presented by connected 
devices and learn how stakeholders are considering these risks 
throughout the supply chain, as well as how consumers are 
responding in the market.
    We have learned about a number of best practices, and 
standards-setting projects are on-going with various groups.
    We are facing exciting growth in the connected device 
industry, but we also need to see meaningful leadership from 
industry about how to address these challenges.

    Mr. Latta. Thank you very much, and I appreciate the 
gentleman for yielding. And I also appreciate both chairmen of 
both subcommittees for holding this very important subcommittee 
hearing today on the cybersecurity risks associated with 
connected devices.
    As has been mentioned, that last month we witnessed one of 
the largest distributed denial of service attacks caused by 
devices connected to the Internet or the Internet of Things. 
The attack against Dyn revealed the impact that a lack of 
adequate security measures in these devices can have on the 
broader Internet community. By simply exploiting weak security 
features, such as default usernames and passwords, hackers 
could easily leverage hundreds of thousands of networked 
devices and compromise several major Web sites.
    That is why it is essential, under the Internet of Things, 
device manufacturers build in security by design and have the 
ability to deploy patches or upgrades. Additionally, consumers 
must be vigilant in securing devices through good cyberhygiene 
practices in order to guard data and fully experience the 
benefit of the Internet of Things.
    As the co-chair of the committee on the Internet of Things 
Working Group, I am all too familiar with this issue. 
Cybersecurity is among one of the most common things that is 
mentioned in all of our working group briefings. No matter what 
type of IoT, from health to energy applications, securing 
devices and protecting consumer data is a top priority.
    Today, we are reminded again that there is a need for IoT 
security guidelines that keep pace with rapidly evolving 
technologies. However, there is a delicate balance between 
oversight and regulatory flexibility, and we must encourage the 
industry to establish best practices that will not hinder 
innovation and protect consumer privacy and security.
    And, with that, I appreciate the gentleman for yielding, 
and I yield back.
    Mr. Walden. The gentlemen yield back their time.
    We will now turn to the gentlelady from Illinois, Ms. 
Schakowsky, for opening comments.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    With each report of a new cyberattack, Americans 
increasingly realize how vulnerable their devices are. On 
October 21, Americans lost access to sites such as Twitter, 
Amazon, and Spotify because of a massive distribution denial of 
service, or DDoS, attack against Dyn, a domain naming system 
company.
    In the wake of that cyberattack, I joined with 
Representatives Pallone, Eshoo, DeGette, and McNerney in 
requesting a hearing like this--and I appreciate it very much 
that we are having it--on this important issue. We need to 
better understand our vulnerabilities and update Federal policy 
to stop such attacks in the future.
    The motivations of hackers vary from identity theft to 
actually undermining public trust. They go after consumers, 
businesses, and even Presidential elections.
    The U.S. intelligence community found that hackers 
supported by the Russian Government put their thumb on the 
scale in 2016. I strongly believe that use of cyberattacks by a 
foreign actor to manipulate our democracy should be troubling 
to everyone. This problem does not go away now that the 2016 
election is over.
    The day after the election, a Wired article reported, 
quote, ``That Russia perceives those operations as successful, 
experts say, will only encourage similar hacks aimed at 
shifting elections and sowing distrust of the political 
processes in Western democracies,'' unquote. Everyone, whether 
your candidate won or lost last week, must grapple with this 
threat, and I hope that we will work on a bipartisan basis to 
protect our democracy from foreign interference.
    Russian hackers exploited holes in security on computers 
and servers. The hackers that carried out the October 21 DDoS 
attack directed their attack through the Internet of Things.
    The Internet of Things is uniquely vulnerable to 
cyberattacks. IoT devices often have less protection from 
malware and manufacturers are often slower to install security 
patches. Manufacturers put consumers at further risk by using 
default passwords or hard-coded credentials. Once hackers find 
out what those passwords are, they can hack hundreds, 
thousands, or even millions of devices. That is what happened 
in the Dyn attack.
    Hackers accessed an army of IoT devices by exploiting 
default passwords. They then used that army to attack Dyn. 
Traffic from the IoT devices overwhelmed the service and shut 
it down, which, in turn, cut off Americans' access to many 
popular Web sites. You don't have to be a tech expert to see 
the terrifying potential for future cyberattacks. So it is time 
now for action.
    Two weeks ago, Ranking Member Pallone and I called on the 
Federal Trade Commission to work with IoT manufacturers to 
patch vulnerabilities on their devices and require the changing 
of default passwords. We also called on the FTC to alert 
consumers about potential security risks. We need stronger 
cybersecurity standards for all devices that could be attacked 
or used to launch a cyberattack.
    Given the nature of cyberattacks, we cannot count on IoT 
manufacturers to do the right thing on their own. They have 
little financial incentive to improve security, and their 
customers may not even realize when their devices are being 
used to harm others. Consumer watchdogs, like the FTC, must 
take a leading role in promoting cybersecurity and holding 
companies accountable when they fail to provide adequate 
protections.
    Unfortunately, at the same time that the threat to 
consumers from cyberattacks are rising, the Republican majority 
is pushing legislation to reduce the FTC's authority and 
cripple its enforcement capabilities. Stopping irresponsible 
behavior by companies requires strong consent orders and the 
ability to pursue privacy cases. The so-called, quote, 
``process reform,'' unquote, bill that Republicans reported out 
of committee would threaten the FTC's ability in those areas. 
Instead of rolling back consumer protections, we need to face 
today's cyberthreats head on. Consumers can't afford to be left 
vulnerable. And in the long run, manufacturers can't survive a 
pattern of high-profile cyberattacks that undermine consumer 
trust in their products.
    In Mr. Schneier's written testimony, he called the Dyn 
attack, quote, ``as much a failure of market policy as it was 
of technology,'' unquote. We should not be content with failure 
any longer.
    I want to thank the chairman for listening to our request 
for a hearing, and we have to continue our work on this issue 
in the months and years to come.
    Mr. Walden. The gentlelady yields back her time. We thank 
you very much for your request. We share in this concern, 
obviously. It is a bipartisan issue.
    We look forward now to the testimony from our expert 
witnesses. We are glad you are all here, and we will start with 
Mr. Dale Drew, who is the senior vice president/chief security 
officer for Level 3 Communications.
    Mr. Drew, welcome. Thank you very much. Turn on your 
microphone and have at it.

STATEMENTS OF DALE DREW, SENIOR VICE PRESIDENT, CHIEF SECURITY 
   OFFICER, LEVEL 3 COMMUNICATIONS; BRUCE SCHNEIER, FELLOW, 
 BERKMAN-KLEIN CENTER AT HARVARD UNIVERSITY, AND LECTURER AND 
  FELLOW, HARVARD KENNEDY SCHOOL OF GOVERNMENT; AND KEVIN FU, 
PH.D., CEO, VIRTA LABORATORIES, INC., AND ASSOCIATE PROFESSOR, 
  DEPARTMENT OF ELECTRICAL ENGINEERING AND COMPUTER SCIENCE, 
                     UNIVERSITY OF MICHIGAN

                     STATEMENT OF DALE DREW

    Mr. Drew. Chairmen Walden and Burgess and Ranking Members 
Eshoo and Schakowsky, thank you for the opportunity to testify 
on behalf of Level 3 Communications regarding the recent 
cyberattacks on our Nation's communications landscape and the 
risks posed by vulnerabilities found in IoT devices.
    Level 3 is a global communications company serving 
customers in more than 500 markets in over 60 countries. Given 
our significant network footprint and the amount of traffic we 
handle on a daily basis, Level 3 has a unique perspective on 
threats facing our communications landscape. Several years ago, 
Level 3 established the Threat Research Labs to actively 
monitor communications for malicious activity, helping to 
detect and mitigate threats on our networks, our customers, and 
the broader Internet. Every day our security team monitors more 
than 48 billion security events, detecting over 1 billion 
unusual or suspicious pieces of traffic.
    The proliferation of IoT devices represents tremendous 
opportunities and benefits for consumers by connecting devices 
such as cameras, light bulbs, appliances, and other everyday 
items to the Internet. However, the lack of adequate security 
measures in these devices also poses significant risks to users 
in the broader Internet community.
    Vulnerabilities in IoT devices stem from several sources. 
Some devices utilize default and easily identifiable passwords 
that hackers can exploit. Others utilize hard-coded credentials 
that users are not able to change. Many devices also lack the 
capability of updating their firmware, forcing consumers to 
monitor for and install the updates themselves.
    The global nature of the IoT device marketplace means many 
products are manufactured in and shipped to foreign countries 
that have yet to embrace sound and mature cybersecurity 
practices. IoT devices are also particularly attractive targets 
because users often have very little way to know when they have 
been compromised. Unlike your personal computer or phone, which 
have endpoint protection capabilities and the user is more 
likely to notice when they perform improperly, compromised IoT 
devices may go unnoticed for longer periods of time.
    In September of 2016, Level 3's Threat Research Labs began 
tracking a family of malware targeting IoT devices. The bad 
actors were leveraging the infected devices to create DDoS 
botnets, impacting not just those devices but potentially 
anyone on the Internet. The new malware, known as Mirai and its 
predecessor BASHLITE has affected nearly 2 million devices on 
the Internet. Mirai resulted in multiple major Web sites going 
offline, and the new attacks are alarming for their scope, 
impact, and the ease in which the attackers have employed them.
    Also worrisome is that these attackers relied on just a 
fraction of the total available compromised IoT nodes in order 
to attack their victims, demonstrating the potential for 
significantly greater havoc for these new threats. Level 3 
detected, for example, approximately 150,000 IoT devices were 
used to generate more than 500 gigabits per second of traffic, 
a significant amount of bandwidth that threatens the fabric of 
the global Internet.
    The primary motivation for these attacks appear to be 
financial. Hackers utilize DDoS to overwhelm businesses, 
threatening to take their business offline unless they pay a 
ransom for the attacker. In other cases, attackers are simply 
out to create mischief.
    Although Level 3 has not been a direct victim of these 
attacks, we are proactively taking steps to address these. We 
have contacted manufacturers of compromised devices to inform 
them of the problem and for them to take appropriate action, 
such as firmware updates or recalls. We have engaged in a 
public awareness campaign to educate consumers and businesses 
about the risk of IoT botnets and steps they can take to 
protect themselves. We are also working collaboratively with 
our industry partners to monitor this evolving threat and 
implementation of mitigation techniques.
    With the exploding proliferation of IoT devices, so too 
will the threats they pose continue to expand and evolve. It 
will be imperative for all relevant stakeholders to continue to 
work collaboratively and address and mitigate IoT security 
risks so that we can reap the benefits of this exciting and 
transformative technology.
    Thank you again very much for the opportunity to testify, 
and I look forward to taking your questions.
    [The prepared statement of Mr. Drew follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    Mr. Walden. Mr. Drew, thank you for taking time out of your 
schedule to be here as well. We greatly appreciate it.
    I now turn to Mr. Bruce Schneier, a fellow at the Berkman 
Klein Center at Harvard University; lecturer and fellow, 
Harvard Kennedy School of Government; and special adviser to 
IBM Security.
    Mr. Schneier, thank you for being here. We look forward to 
your testimony, sir.

                  STATEMENT OF BRUCE SCHNEIER

    Mr. Schneier. Thank you, Chairman Walden, Chairman Burgess, 
Ranking Members Eshoo and Schakowsky. Committee members, thank 
you for having me and thank you for having this, I think, very 
important hearing.
    I am Bruce Schneier. I am a security technologist. And 
while I have an affiliation with both Harvard and IBM, I am not 
speaking for any of them and I am not sure they know I am here.
    Mr. Walden. It is a secret. Nobody on the Internet knows 
either.
    Mr. Schneier. As the chairman pointed out, there are now 
computers in everything, but I want to suggest another way of 
thinking about it, in that everything is now a computer. This 
is not a phone, this is a computer that makes phone calls; or a 
refrigerator is a computer that keeps things cold; an ATM 
machine is a computer with money inside. Your car is not a 
mechanical device with computers, but a computer with four 
wheels and an engine, actually, a hundred-computer distributed 
system with four wheels and an engine. And this is the Internet 
of Things, and this is what caused the DDoS attack we are 
talking about.
    I come from the world of computer security, and that is now 
everything security. So I want to give you four truths from my 
world that now apply to everything.
    First, attack is easier than defense for a whole bunch of 
reasons. The one that matters here is that complexity is the 
worst enemy of security. Complex systems are hard to secure for 
an hour's worth of reasons, and this is especially true for 
computers and the Internet. The Internet is the most complex 
machine mankind has ever built by a lot and it is hard to 
secure. Attackers have the advantage.
    Two, there are new vulnerabilities in the interconnections. 
The more we connect things to each other, the more 
vulnerabilities in one thing affect other things. We are 
talking about vulnerabilities in digital video recorders and 
Web cams that allowed hackers to take down Web sites. There are 
stories of vulnerabilities in a particular account.
    One story. A vulnerability in an Amazon account allowed 
hackers to get to an Apple account, which allowed them to get 
to a Gmail account, which allowed them to get to a Twitter 
account. Target Corporation, you remember that attack. That was 
a vulnerability in their HVAC contractor that allowed attackers 
to get into Target. And vulnerabilities like these are hard to 
fix because no one system might be at fault. There might be two 
secure things come together and create insecurity.
    Truism three: The Internet empowers attackers, attack 
scale. The Internet is a massive tool for making things more 
efficient, and that is also true for attacking. The Internet 
allows attacks to scale to a degree impossible otherwise. We 
are talking about millions of devices harnessed to attack Dyn, 
and that code, which somebody smart-wrote, has been made 
public. Now anybody can use it. It is in a couple of dozen 
botnets right now. Any of you can rent time on one on the dark 
Web to attack somebody else. I don't recommend it, but it can 
be done. And this is more dangerous as our systems get more 
critical.
    The Dyn attack was benign, a couple of Web sites went down. 
The Internet of Things affects the world in a direct and 
physical manner: Cars, appliances, thermostats, airplanes. 
There are real risks to life and property and there are real 
catastrophic risks.
    The fourth truism: The economics don't trickle down. Our 
computers are secure for a bunch of reasons. The engineers at 
Google, at Apple, at Microsoft spent a lot of time at this, but 
that doesn't happen for these cheaper devices. Ms. Eshoo has 
talked about this. These devices are lower profit margin, they 
are offshore, there are no teams, and a lot of them cannot be 
patched. Those DVRs, they are going to be vulnerable until 
someone throws them away, and that takes a while. We get 
security, because I get a new one of these every 18 months. 
Your DVR lasts for 5 years, your car for 10, your refrigerator 
25. I am going to replace my thermostat approximately never.
    So the market really can't fix this. The buyer and seller 
don't care. And Mr. Burgess pointed this out. The buyer and 
seller want a device that works. This is an economic 
externality. They don't know about it and it is not part of the 
decision. So I argue that Government has to get involved, that 
this is a market failure, and what I need are some good 
regulations. And there is a list of them, and Dr. Fu is going 
to talk about some of them, but this is not something the 
market can fix.
    And to speak to Mr. Walden's point, I mean, yes, I am 
saying that a U.S.-only regulatory system will affect the 
products in the world, because this is software. Companies will 
make one software and sell it everywhere, just like, you know, 
automobile emissions control laws in California affect the rest 
of the country. It makes no sense for anybody to come up with 
two versions. And I think this is going to be important, 
because for the first time, the Internet affects the world in a 
direct and physical manner.
    And the second point I want to make very quickly is we need 
to resist the FBI's calls to weaken these devices in their 
attempt to solve crimes. We have to prioritize security over 
surveillance. It was OK when it was fun and games, but now, you 
know, already this stuff on this device that monitors my 
medical condition, controls my thermostat, talks to my car, I 
mean, I have just crossed four regulatory agencies and it is 
not even 11 o'clock.
    This is going to be something that we are going to need to 
do something new about. And like many new technologies in the 
20th century, new agencies were created: Trains, cars, 
airplanes, radio, nuclear power. My guess is this is going to 
be one of them, and that is because this is different. This is 
all coming. Whether we like it or not, the technology is 
coming. It is coming faster than we think. I think Government 
involvement is coming, and I would like to get ahead of it. I 
would like to start thinking about what this would look like. 
And we are now at the point, I think, where we need to start 
making moral and ethical and political decisions about how 
these things worked.
    When it didn't matter, when it was Facebook, when it was 
Twitter, when it was email, it was OK to let programmers, to 
give them the special right to code the world as they saw fit. 
We were able to do that. But now that it is the world of 
dangerous things, that is, cars and planes and medical devices 
and everything else, that maybe we can't do that anymore. And I 
don't like this. I like the world where the Internet can do 
whatever it wants whenever it wants at all times. It is fun. 
This is a fun device. But I am not sure we can do that anymore.
    So thank you very much, and I look forward to questions.
    [The prepared statement of Mr. Schneier follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    Mr. Walden. Mr. Schneier, thank you very much. I appreciate 
your comments.
    We will now go to Dr. Kevin Fu, CEO of Virta Labs and 
associate professor, Department of Electrical Engineering and 
Computer Science, at the University of Michigan.
    Dr. Fu, thank you for joining us. Please go ahead.

                     STATEMENT OF KEVIN FU

    Dr. Fu. Good morning, Chairmen Walden, Burgess, Ranking 
Member Eshoo and Schakowsky, and distinguished members of the 
joint committee.
    My name is Kevin Fu. I represent the academic cybersecurity 
research community. I am at the University of Michigan, where I 
conduct research on embedded security. My laboratory discovers 
how to protect computers built into everyday objects, ranging 
from mobile phones and smart thermostats to pacemakers and 
automotive airbags. I am also CEO and cofounder of the 
healthcare cybersecurity startup Virta Labs.
    I am testifying before you today on the insecurity of the 
Internet of Things as related to the recent attacks on Dyn. I 
will provide a perspective on the evolving cybersecurity risks 
framed in the broader societal context. In short, IoT security 
remains woefully inadequate. None of these attacks are new. 
None of these attacks are fundamentally new, but the 
sophistication, the scale of disruption, and the impact on 
infrastructure is unprecedented.
    Let me make some observations. We are in this sorry and 
deteriorating state because there is almost no cost to a 
manufacturer for deploying products with poor cybersecurity to 
consumers. Has a consensus body or Federal agency issued a 
meaningful IoT security standard? Not yet. Is there a national 
testing lab to verify and assess the premarket security of IoT 
devices? No. Is there tangible cost to any company that puts an 
insecure IoT device into the market? I don't think so.
    So I would like to highlight eight observations about this 
IoT insecurity.
    Number one, security needs to be built into IoT devices, 
not bolted on. If cybersecurity is not part of the early design 
of an IoT device, it is too late for effective risk control.
    Two, good security and bad security look the same at the 
surface.
    Three, the healthcare community does not issue different 
advice for flu transmitted by cough versus flu transmitted by 
sneeze. Similarly, both connected and disconnected IoT devices 
carry significant cybersecurity risks, so it is important to 
consider both conditions.
    Four, the millions of insecure IoT devices are just a small 
fraction of what the IoT market will resemble in 2020, and it 
will get much worse if these security problems remain 
unchecked.
    Five, unlike inconvenient security problems for your 
tablets or notebook computers, IoT's insecurity puts human 
safety at risk, and innovative systems will not remain safe if 
they are not secure.
    Six, I consider security a solution, not a problem. Better 
cybersecurity will enable new markets, promote innovation, and 
give consumers the confidence to use new technologies that 
improve the quality of life.
    Seven, it may be surprising, but there are over 209,000 
unfilled cybersecurity jobs in the USA, and that is just this 
country.
    And eight, the Nation lacks an independent testing facility 
at the scale of a federally funded research and development 
center as a proving ground for testing premarket IoT 
cybersecurity crashworthiness and for testing embedded 
cybersecurity defenses.
    Let me conclude with five recommendations to protect our 
national infrastructure.
    Number one, incentivize built-in basic cybersecurity 
hygiene by establishing meaningful milestones encouraging use 
of strong cryptography in these products.
    Two, support agencies such as the National Science 
Foundation, the National Institute of Standards and Technology, 
to advance our understanding of IoT security and to train the 
hundreds of thousands of students necessary for a robust 
cybersecurity workforce.
    Three, study the feasibility of standing up an independent 
national embedded cybersecurity testing facility modeled after, 
for instance, post-incident initiatives, such as the National 
Transportation Safety Board; incident prevention initiatives, 
such as the National Highway Traffic Safety Administration, 
NHTSA; and then more unusual places like the survivability and 
destruction testing at the Nevada National Security Site.
    Number four, I recommend leveraging the existing 
cybersecurity expertise with an agency such as NIST, NSF, DHS, 
and DARPA.
    And finally, five, I believe that universities, industry, 
and the Government must find the strength and the resolve for 
protecting our national infrastructure through partnerships, 
and that investments in embedded cybersecurity will pay great 
dividends to our society and our economy.
    I would like to close, just thank you for the invitation to 
testify on what I think is a very important subject for our 
country. The committee can also find photos of illustrative IoT 
problems in water treatment facilities, hospitals and more in 
the appendix of my written testimony. And I would be happy to 
take your questions. Thank you.
    [The prepared statement of Dr. Fu follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
       
    Mr. Walden. Dr. Fu, thank you.
    And thank you to all of our witnesses. This has been very 
enlightening. We greatly appreciate your testimony and your 
recommendations for our consideration.
    I guess I will start with a couple of questions as we try 
and wrestle this issue. Over the last 6 years, we have done 
multiple hearings on cybersecurity threats to the United 
States. We have had multiple panels come before us and testify. 
And I think almost entirely they said, first, do no harm. Be 
careful when you lock things into statute because you can 
misallocate our resources and our opponents will know what we 
have to go do and we can't get out of it and they will just go 
do a workaround.
    So how do we establish a framework that would both be 
appropriate here but have an effect internationally, because we 
don't make all the devices and we may have market power, but we 
are not the biggest market anymore? But how do we create a 
national framework where the stakeholders really are driving 
this in realtime and we don't do something stupid like lock 
certain requirements into statute?
    Mr. Drew, can I start with you, and we will just work down 
the panel?
    Mr. Drew. I think the best place to start is with 
standards. I think the best place to start is for us to define 
how we intend on solving this problem on the devices 
themselves. Industries have a number of standards with regards 
to how they operate these platforms once they purchase them, 
but they don't have standards on how they are supposed to be 
manufactured to be secure premarket.
    So I believe if we were to start with standards and then 
apply pressure--so as an industry, I am under pressure to 
implement standards in order to be able to serve businesses and 
serve the consumers. I think if we start with that standard, 
then we are able to apply that pressure. And to the extent that 
pressure can be applied globally, I think that we can get some 
traction and some momentum before we have to start regulating.
    Mr. Walden. All right.
    Mr. Schneier?
    Mr. Schneier. I am also a fan of standards. And I think 
your question is a really important one, how do you do it 
properly as to not stifle innovation?
    Mr. Walden. Right.
    Mr. Schneier. And I think the answer is to make them 
technologically invariant. And I tend to look at the pollution 
model as something--what works and what doesn't. And what works 
is, you know, here is the result we want. Figure out how to do 
it in the most cost-effective way possible, rather than 
legislate here's the process, here's the technology. The 
standard has to be technologically invariant.
    And I heard, you know, you had a driverless car hearing 
yesterday, and I think it is somewhat similar. We are going to 
make standards on the driverless car manufacturers to do things 
properly, but we are going to assume an environment where there 
exists, you know, malicious cars out to get you. So we will 
have to deal with the rogue devices. We can't assume that 
everything on the Internet, or everything on the roads, is 
going to be benign and secure. But standards will raise the 
tide, but yes, we have to do them properly, because you do them 
wrong and it will stifle innovation. Do them right, I think it 
will help innovation.
    Mr. Walden. All right.
    Dr. Fu?
    Dr. Fu. Yes. I think there are ways you can do this 
effectively without stifling innovation. In fact, I believe 
that a well-designed cybersecurity framework will actually 
promote innovation. I will try to avoid the technical side, but 
I will just say, you know, of course, encoding mechanism would 
be unwise. For instance, if you decide to encode that all forms 
must be signed in blue ink, that didn't, you know, assume the 
existence of e-signatures in the future. So you should be very 
careful of encoding mechanism.
    However, principles I think you can encode. I would 
actually say that NIST has done a relatively good job at 
encoding principles. There is no perfect standard. But it will 
be very difficult to build in security if we don't have these 
principles set in place. And it needs to have buy-in from 
industry. It needs to have Government leadership as well. But 
it is all about setting those principles, which many of which 
are already known for over 30 years in the cybersecurity 
community.
    Mr. Walden. All right. Most helpful. The extent to which 
you all can think about this some more and give us kind of your 
ideas on how to actually get it to the right place. Because 
this is my concern, that if we are not careful, we lock 
something in, it is so hard to change statute.
    And we don't want this to be an innovation killer in 
America. We actually want to lead on this and get it right. 
But, you know, I don't think I want my refrigerator talking to, 
you know, some food police somewhere, you know. It just is what 
it is. So we need to get this thing right. So thank you for 
being here.
    At this point, I will return the balance of my time and 
turn to my friend and colleague who has been very involved in 
this, Ms. Eshoo, from California.
    Ms. Eshoo. Thank you, Mr. Chairman.
    And thank you to each one of you, the witnesses. I think 
you were absolutely terrific.
    I have legislation that I introduced that speaks to this 
issue. It hasn't really gained much traction. But what you said 
today I think puts some wheels on it, because it is about 
security without damaging innovation.
    We talk a lot about the attacks that take place, but we 
don't really focus on prevention. Throughout the Valley, 
Silicon Valley, no matter who I have met with, I have asked 
them the same question: What would you do about this? And to a 
person, they have spoken about hygiene, the lack of hygiene in 
systems, number one; and number two, the lack of good solid 
security management.
    I don't think--let me put it in a positive. I think we need 
a Good Housekeeping Seal of Approval on this, and I think 
that--and my bill called for NIST to set the standards, not the 
Congress, because we really don't know anything about that. And 
we miss the mark, we will miss it by a wide mile. Exactly.
    So I also think in listening to you, especially Mr. 
Schneier, that this is an issue that should be included in 
national infrastructure legislation, because this is part of 
our national infrastructure. And it deserves the kind of 
protection that you spoke to, because, as you said, everything 
is a computer, everything. It is not just the computers over at 
the DOD. We are carrying them around in our pockets, we are 
driving them, et cetera, et cetera.
    So given that, what is the framework for it? How would 
both--Mr. Schneier and Dr. Fu and Mr. Drew, what would it look 
like? What would it look like? I am giving you a blank slate. 
What would you write on that slate to be placed in a national 
infrastructure bill? So whomever wants to start.
    Mr. Schneier.
    Mr. Schneier. I actually think we need a new agency. The 
problem we are going to have is that we can't have different 
rules if the computer has wheels or propellers or makes phone 
calls or is in your body. That is just not going to work, that 
these are all computers and we are going to have to figure out 
rules that are central.
    Ms. Eshoo. We have a continuing new new majority. So I 
don't think they want to create an agency, honestly, but this 
thing needs to get done.
    Mr. Walden. For every one we create, we delete two.
    Ms. Eshoo. They don't like that stuff.
    Mr. Schneier. I think you are right.
    Ms. Eshoo. You know, new agencies, new regulations, we are 
dead in the water. But we can't leave this issue to be dead in 
the water. Our country deserves much better. And so I am really 
not joking. I mean, it is a little bit of fun, but, you know.
    Mr. Schneier. I understand. But I actually think it is not 
going to go that way. I mean----
    Ms. Eshoo. Oh, good.
    Mr. Schneier [continuing]. Because I think the Government 
is getting involved here regardless. The risks are too great 
and the stakes are too high. And, you know, nothing motivates a 
Government into action like security and fear.
    In 2001, we had another small-Government, no-regulation 
administration produce a new Federal agency 44 days after the 
terrorist attacks. Something similar happens in the Internet of 
Things, and there is no cybersecurity expert that will say, 
well, sure, that could happen. I think you are going to have a 
similar response.
    So I see the choice is not between Government involvement 
and no Government involvement, but between smart Government 
involvement and stupid Government involvement. I would rather 
think about it now, even if you say you don't want this, 
because when something happens and the public says something 
must be done, what do you mean, a thousand people just died, 
that we have something more than a, ``I don't know, let's 
figure it out fast.'' So I agree with you. I am not a 
regulatory fan, but this is the world of dangerous things. We 
regulate dangerous things. So----
    Ms. Eshoo. Dr. Fu, can you do something, in 5 seconds? 
Thank you.
    Dr. Fu. I would say just we are going to have some serious 
trouble if we don't answer these questions. I fear for the day 
where every hospital system is down, for instance, because an 
IoT attack brings down the entire healthcare system.
    I do think you need to spend more time on the premarket. I 
know from my working with manufacturers that the engineers 
there are brilliant, but they often are not given the time of 
day from their executives. They are often not given the 
resources to do their jobs. What you need to do is give those 
people who can do a good job at those companies the ability to 
do so and incentivize their executives.
    Ms. Eshoo. Thank you very much. Most helpful.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you. I would just point out we are all 
engaged in this on both sides. My friend and I have some back-
and-forths from time to time. She likes to characterize what we 
are for or against, which we may or may not be, but we are all 
committed to trying to figure out how to find a solution, and 
this is bipartisan.
    So we appreciate your testimony. We scheduled this hearing 
back in October right after the attack, and as soon as we were 
back in town we are having it, and we will continue to march 
forward.
    With that, I would turn to the gentleman from Texas, Mr. 
Burgess.
    Mr. Burgess. Thank you, Chairman Walden.
    And it has been a fascinating discussion back and forth. 
Many years ago before I knew about the Internet of Things, I 
was invited up to Microsoft in Washington and they showed me 
the house they had. In fact, the house was named Grace. And, 
you know, you walk up to the door and Grace knew you were 
coming to the door. Grace turned the lights on, set the 
thermostat for the temperature that you wanted. As you came 
into the kitchen, Grace might suggest a meal for you. Like Mr. 
Walden, I worried that Grace's refrigerator would communicate 
with the bathroom scale and lock down the Blue Bell ice cream 
on me. So it is an interesting world in which we have arrived.
    Mr. Drew, I am really fascinated by your comment in your 
written testimony about the incentive for someone to do this in 
the first place. And we have all heard, since 9/11, that 
sometimes you have got to think like a criminal or think like a 
terrorist in order to outsmart them. And you referenced the 
monetization. I don't even see--I mean, I get on ransomware 
when you lock down a hospital and you have got to come up with 
so many thousands of dollars in bitcoins to some dark Web site, 
but how do you monetize that your doorbell is conversing with 
Twitter? I mean, I don't know how that works.
    Mr. Drew. What we are seeing in these botnets is the botnet 
operators are operating, you know, hundreds of thousands of 
nodes and then renting out a small portion of those nodes to 
people to be able to attack Web sites and hold those Web sites 
for ransom. So if you don't pay me $20,000, your Web site will 
be offline for the next 3 days. So a very successful 
enterprise. It is 40 to 45 attacks a day at 16 grand an attack. 
So----
    Mr. Burgess. That is happening right now?
    Mr. Drew. It is happening right now.
    Mr. Burgess. I know you are not in law enforcement. What is 
the response of our law enforcement agencies that are supposed 
to be enforcing the laws?
    Mr. Drew. They are working very diligently to identify the 
operators of the botnet as well as the renters of the botnet, 
as well as making some arrests in those cases to be able to 
curtail this. But what we have seen is the IoT of Things has 
changed the nature of the game of this to where it is much 
easier to break into those devices and they go unnoticed for 
longer periods of time.
    Mr. Burgess. This is one of the things that bothers me 
about this, because until we had this headline-grabbing attack 
because it was just so massive, you don't hear about someone 
being busted for holding someone hostage for $17,000 so you 
unlock their hospital records or whatever was going on.
    I mean, one of the things that is talked about is making 
the public aware. You got to change, you got to practice good 
hygiene, you can't have your password as password or 1234. But 
you also--there needs to be a societal understanding of 
reporting the crimes when they occur and, to some degree, these 
need to be publicized much more than they are.
    I mean, I have heard from folks in the FBI that, yes, there 
is a risk that a hospital that gets stuck with one of these 
things, they are just simply embarrassed and they don't want to 
go public with the fact that they were hacked. Pay the $17,000. 
You are given instructions on how to get the bitcoins and where 
to deliver them. So that is actually easier than going to law 
enforcement and dealing with all of the things that would 
happen with law enforcement. But that is absolutely critical.
    And then never in any of the discussion of this, that I 
have seen so far, has there been really the discussion of what 
happens to people who are caught who perpetrate this, and it 
should be swift and severe and public. I suggested at another 
hearing, shot at sunrise. And I am not trying to be overly 
dramatic, but if you lock down an ICU's medical records and an 
ICU's worth of patients die as a consequence, I mean, that is a 
capital crime.
    So anyway, I know we are not going to solve all of the 
problems today, but I just wanted to put those concepts out 
there. This is relatively new for most of us.
    I think one of the things that I like about--you know, Mr. 
Chairman, one of the things I like about what the Commerce, 
Manufacturing, and Trade Subcommittee did on data breach 
notification was, we will set the standard, but we don't 
prescribe the technology, because the technology changes much 
faster than the Congress.
    Yes, I am nervous too about creating new Federal agencies. 
The concept that we could delete two Federal agencies for every 
one we create, I have got two to recommend to leave very 
quickly. They deal with health care. But I know the standards 
need to be there.
    And the other thing is we have got a massive job as far as 
informing the public, and that is part of this hearing today 
and I hope we all carry that forward quite seriously.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Walden. The gentleman yields back.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky.
    Ms. Schakowsky. So let me ask actually all of you, but let 
me start with Mr. Schneier. You talked about how markets have 
failed us and that Government has to play a role. But I am 
wondering, from you and from anyone, given that computers are 
ubiquitous--and your example that got into Target through the 
HVAC system is just shocking to me. But is there a role for 
consumers, for consumer education, for consumer action, or is 
this beyond us now for individuals to actually play a role in 
security?
    Mr. Schneier. Yes. I think there is a role for some, but, 
really, we are asking consumers to shore up lousy products. It 
shouldn't be that there are default passwords. It shouldn't be 
that you have to worry about what links you click on. Links are 
for clicking on. I mean, these devices are low profit margin. 
They are made offshore. The teams that--after they make them 
disband. And the buyer and seller don't care. I mean, so this--
I might own this DVR, you might own it. You don't know if it 
was used. You don't know if it is secure or not. You can't test 
it. And you fundamentally don't care. You bought it because of 
the features and the price. It was sold to you because of the 
features and the price.
    And this is an externality. The fact that it was used by 
this third party, not him but, you know, by the third party to 
attack this other site, and it is something that the market 
can't solve because the market isn't involved in that. So I 
don't think I can educate the consumer. It is putting a sticker 
on that says, you know, this device costs $20 more and is 30 
percent less likely to annoy people you don't know. I am not 
sure I am going to get a lot of sales.
    Ms. Schakowsky. So in 2015, the Federal Trade Commission 
suggested best practices for device manufacturers to address 
security vulnerabilities. For example, device manufacturers 
should test security measures before releasing their products, 
minimizing the data they collect and retain.
    And, frankly, it seems surprising to me that manufacturers 
are not already taking these steps. But you are saying that 
right now there are no real incentives. So is that what we need 
to focus on?
    Mr. Schneier. I think we should. I think if we get the 
incentives right, the technologists will figure this out. I 
mean, this isn't--some of it is rocket science, most of it 
isn't. But these are solvable problems. The incentives just 
aren't there to build the security in. We incentivize price. We 
incentivize time to market. We incentivize features. I mean, 
that is what we buy, that is what we want, because that is what 
we can see.
    I don't think I can get consumers to pry open the hood and 
look at the details. It is beyond the consumers I know and it 
shouldn't be their problem. It shouldn't be something they have 
to worry about.
    Ms. Schakowsky. So let me ask Mr. Drew and Dr. Fu if you 
want to comment on that.
    Mr. Drew. I would largely agree with my colleague here. I 
would say that, from a business perspective, there is a lot of 
incentive for me to make sure that the products that I buy, the 
software that I buy follow specific standards, have been 
manufactured correctly before I put them in the network.
    I would like to see more in that area. I would like to see 
more responsibility put on the manufacturer than there is 
today, but I do provide that incentive to those manufacturers.
    Consumers, on the other hand, don't have that incentive. 
What they do have is the incentive of public events, right, and 
the Internet has been very adaptable and very flexible to that, 
that when there is a large sort of trip over--or a mistake over 
security that they become more aware, and then they push those 
requirements and those demands back to the manufacturers by 
purchasing products they feel more comfortable with.
    So I am going back to standards. I am going back to 
certifications and standards. You see that seal of approval on 
the device and you know that is a device that is going to be 
more protected than another device, because you don't want your 
refrigerator talking to your scale or you don't want your 
thermostat talking to your doorbell. And so I think----
    Ms. Schakowsky. Let me just interrupt you because my time 
is running out, but I would like Dr. Fu to be able to join in.
    Dr. Fu. Sure. I would just paint a darker picture. Even if 
a consumer wants to have--so not many consumers are aware they 
need security, but when they even want security, it is hard to 
get. Let me take the example of the hospitals, asking questions 
about why ransomware gets into hospitals. It is not because 
they are not clueful about it. They can't get the manufacturers 
to provide them with these IoT medical devices that can 
withstand the threats of malware.
    And it comes down to plain old economics. The question is, 
well, how much will you pay for it? Well, we think it should be 
built in. We think it is a public good. Well, how much are you 
going to pay for it? So everything is going to be driven by the 
economic factors. And I think the problem is, you know, the 
consumer group thinks that, you know, it ought to be a public 
good. And then from the manufacturing standpoint the question 
is, well, how much are you going to pay for it? And that is a 
question that needs to be resolved.
    Ms. Schakowsky. Thank you.
    Thank you. I yield back.
    Mr. Latta [presiding]. The gentlelady yields back.
    And the Chair now recognizes the gentlelady from Tennessee 
for 5 minutes.
    Mrs. Blackburn. Thank you so much, Mr. Chairman.
    I want to go back. I mentioned the Cisco stats, and I think 
they rolled out of my mouth the wrong way. I want to clarify 
that for the record.
    We are currently at 3.4 IoT devices per person, and by 
2020, we are going to be at 50 billion IoT devices. And that is 
the magnitude of this vulnerability that we have, because we 
are seeing it across our entire economy as we move from a 
physical application in so many arenas to the virtual space.
    And, Professor Fu, I want to come to you. And Ms. 
Schakowsky just mentioned hospitals. Let's stay with that 
medical device component, because of the area that I represent, 
Nashville area, there is a lot of healthcare informatics and 
work that is done utilizing IoT devices in the medical field. 
And as you look at the security, of course, that is a concern. 
You look at information share, you know, you get 
vulnerabilities.
    But you mentioned in your testimony, going back on pages 5 
and 6, IoT devices tend to have safety consequences or involve 
physical manipulation of the world that could easily lead to 
harm. And then you go on to say a number of hospitals expressed 
concern about the IoT devices.
    So talk to me about mitigation strategies and what you see 
with these devices, and then what special considerations must 
be given to healthcare technology and to the medical devices, 
and how should we go about addressing that?
    Dr. Fu. Thanks for the question. Unfortunately, I don't 
think I will be able to give a satisfying answer, because at 
the moment, if you were to be a fly on the wall in the 
boardroom when the hospitals are discussing the topic of how 
does IoT security affect their assurance of the clinical 
operations being continuous, at the moment, it is--they don't 
have a plan. It is more, well, we need to get a plan, what can 
we do. And it is usually some of the security officers saying, 
well, the problem is we don't really know what devices we have 
in our hospital, we don't have a very good inventory, we get a 
lot of contraband coming in. This contraband is known as shadow 
IT. It has got a great acronym. But the shadow IT that comes 
in, typically it is a clinician who accidentally connects a 
device to a very important network, but maybe it is a music 
player that is simply providing comfort to the patients during 
surgery, and they don't realize it is introducing new safety 
and security risks, because they don't have the security baked 
into these devices.
    So the IoT risk is more about having unvetted assets coming 
in to a very safety critical arena. They don't have a good 
answer right now and that is because it is not built in.
    Mrs. Blackburn. OK. Well, then let me go to Mr. Drew. And 
the article in the New York Times yesterday that I am sure you 
all saw and are aware of, ``Secret Backdoor in Some U.S. Phones 
Sent Data to China.''
    Mr. Schneier. Yes.
    Mrs. Blackburn. And, Mr. Schneier, I assume you read that. 
Looks like you did. But this is the kind of thing where 
consumers are unaware. And if you take a device like that and 
then you have the concerns if it does get into an environment 
such as a hospital or a medical facility with patient 
information, things of that nature.
    So these malicious actors are out there, and with the 
vulnerability of these IoT devices, you have some of these 
concerns that are going to manifest themselves. So how do we 
make sure that the consumers and the users are alerted to the 
vulnerabilities in the software and in these devices when they 
purchase them so that if they get something like this, they 
know to get rid of it? So, Mr. Drew?
    Mr. Drew. I would say that the biggest sort of benefit of 
IoT devices--the reason IoT devices can get compromised so 
quickly is because they all look the same. So at a device 
manufacturer, all the devices look the same, the users are not 
really configuring the operating system at all, that is why 
devices can get compromised very, very quickly, very wide 
scale.
    Having those devices ability to auto patch so when a new 
exposure comes out, that that device can call home, get a new 
software update and automatically update, that--that is getting 
the thing that keeps that infrastructure healthy.
    Mrs. Blackburn. Thank you. I yield back.
    Mr. Latta. The gentlelady, the vice chair of the full 
committee, yields back.
    The Chair now recognizes the gentleman from New Jersey, the 
ranking member, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Schneier a couple of questions. Looking 
at the attack on Dyn 3 weeks ago, I am concerned some people 
may dismiss it as only a few Web sites going down for a few 
hours. But in your view, what does the attack on Dyn expose 
about cybersecurity generally and why are these attacks moving 
from benign to dangerous?
    Mr. Schneier. It is really what I talked about the world 
moving. The Internet is becoming something that affects the 
world in a direct physical manner. And the computers are the 
same. When we are talking about these computers in our phones, 
in our computers, it is the same computers that are in these 
cheaper and smaller devices. But while the software is the 
same, the engineering is the same, there is a fundamental 
difference between your spreadsheet crashes and you lose your 
data and your car crashes and you lose your life. The computer 
is the same, the software is the same, but the effects are 
night and day different.
    And as these computers start--I live in Minnesota. I have a 
thermostat I can control from my phone and, you know, if 
someone hacks it, they can--well, not this weekend, but in the 
middle of winter, they can burst my pipes when I am here, and 
that is real property damage. And that is different than a few 
Web sites going down. Which I agree, I mean, Dyn was benign. It 
annoyed some people for a while. It didn't hurt anybody. We are 
talking about hospitals, we have seen DDoS attacks against 911 
services. We are looking at our critical infrastructure, our 
power grid, our telecommunications network. These are systems 
that are being controlled by computers.
    We had hackers break into a dam a couple of years ago. They 
didn't do anything, but, you know, next time you might not get 
lucky. We had Russia attack Ukraine's power grid. These are now 
tools of war and of national aggression. I mean, even the 
attacks against our election system, which in the scheme of 
things are pretty benign, might not be next time. I had a piece 
in the New York Times a couple days ago that talked about, we 
need to think about this now, because election machines are 
computers you vote on.
    Mr. Pallone. Sure. Well, let me get to--that kind of leads 
me to the next question, because you and others have said that 
the insecurity of devices connected to the Internet stems from 
market failure, and you even compare the problem to invisible 
pollution. Being an environmentalist, I would like to better 
understand what you mean. Can you expand on the market failure 
at play here, and how are these insecure devices like 
traditional environmental pollution?
    Mr. Schneier. It is because the insecure effects are often 
not borne by the buyer and the seller. The person who bought 
that DVR who is still using it, will use it for the next 5, 10 
years, will not bear any of the costs of the insecurity. So the 
manufacturer and the buyer too reap the benefit. The device was 
cheaper. It was easier to make because it is insecure. And 
there is a societal cost that it can be used to attack others, 
to cause other vulnerabilities, to be used in conjunction to 
cause other insecurities.
    So like pollution, it is something in the environment that 
neither the buyer nor the seller, when they enter their market 
agreement to purchase the product, will fix. So I think the 
solutions are along those lines. We have to think about what is 
the risk to us as a group; you know, what is the national 
security risk of this, for example. I mean, there is one, but 
it is not going to be borne by, you know, the person who bought 
that. It will be borne by all of us.
    So it is incumbent on all of us to secure our critical 
infrastructure against this risk, and that is--so I think the 
solutions are very similar in conception. The tech is very 
different.
    Mr. Pallone. All right. Let me ask you one last question. 
You seem to believe that regulation of some kind might be part 
of the solution, but I have heard some at the FCC argue that 
regulation of devices connected to the Internet will constrain 
innovation. Would you agree with that?
    Mr. Schneier. Yes, it will. I mean, I don't like that, but 
in the world of dangerous things, we constrain innovation. You 
cannot just build a plane and fly it, you can't, because it 
could fall on somebody's house. And you might not care, I mean, 
it might be a drone, but we societally care. True for medical 
devices, true for dangerous things. And it might be that the 
Internet era of fun and games is over, because the Internet is 
now dangerous.
    I mean, we haven't even started talking about actual 
robots, but, you know, a robot is just a computer with arms and 
legs that can do stuff. And I personally don't like killer 
robots. I think they are a mistake and we should regulate them.
    So, yes, this is going to constrain innovation. It is not 
going to be good, I am not going to like it, but this is what 
we do when innovation can cause catastrophic risk. And it is 
catastrophic risk here. It is crashing all the cars, it is 
shutting down all the power plants. I mean, the Internet makes 
this possible because of the way it scales, and these are real 
risks.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back.
    The Chair now recognizes the gentleman from New Jersey for 
5 minutes.
    Mr. Lance. Thank you. Good morning to the distinguished 
panel. And I certainly agree with Congresswoman Eshoo that this 
is one of the more interesting panels that we have had on this 
extremely important topic.
    Professor Fu, of your observations and recommendations, the 
eight of them you have given to us, I would like to concentrate 
on three of them.
    Number one, you state that security needs to be built into 
the Internet of Things, devices, not bolted on. Could you 
expand on that as to how you think that might occur, that the 
security occurs before the device has been manufactured?
    Dr. Fu. Right. Thank you. So often when we talk about 
security problems in the media or the news, you think, oh, this 
was a poorly implemented product, where, in fact, it was a 
poorly designed product, and there is a subtle difference. If 
you don't get security built in to the early design of these 
IoT devices, it doesn't matter how smart the engineers are, 
they will never be able to succeed at creating a secure device, 
and so that is why you really need to build it in.
    If you have this residual risk that you then hand off to 
the consumer, there are some sweet spots where you can try to 
mitigate the risk after the fact, but it is extremely rare, 
extremely hard, and extremely----
    Mr. Lance. So how do we do that? How do we build it in 
initially?
    Dr. Fu. Right. There is actually quite a bit of--this is 
going to get deep into engineering, but let me just say it in 
one sentence. It is about hazard analysis. It is all about 
understanding and enumerating those risks and having the 
manufacturer choose which risks to accept, which risks to 
mitigate, which risks to pass on to the consumer.
    Mr. Lance. And can that be done through the consumer market 
or would it require some sort of governmental control? We have 
mandated, of course, airbags in automobiles, seatbelts in 
automobiles to be built into the automobile initially and not 
to be added to the automobile. Is it your recommendation that 
this will require some sort of governmental mandate or not?
    Dr. Fu. I do believe in the long-term, this will likely 
require some kind of governmental mandate only because, in my 
experience working with the industry, even though they mean 
well, even the people who can do it don't have the authority to 
do the right thing, because they don't have the economic 
drivers. You often have different constituencies within each 
company.
    And let me just cite an example from the medical world. We 
didn't think about the safety of over-the-counter drugs until 
1982 with the cyanide poisonings in Chicago. Until that day, 
consumers had quite a bit of faith in those pharmaceuticals. We 
haven't seen that moment for IoT, but we know that that is 
there and we know that it can cause harm.
    Mr. Lance. Thank you. Moving on, number 4 of your 
observations for devices already deployed, we should take some 
comfort that millions of insecure devices are just a small 
fraction of what the market will resemble in 2020. I suppose 
you mean by that that this is just at the beginning and there 
will be many, many more by 2020.
    Dr. Fu. That is correct. I would say, on a positive side, 
it means if we take an action now, we could actually win this, 
we could actually have a very secure ecosystem. So even though 
there are terrible, terrible problems today, we can fix it, so 
we shouldn't give up hope.
    Mr. Lance. And can you give us a rough estimate, if we have 
X number of devices now, how many devices will we have in 2020?
    Dr. Fu. Well, I have heard the number double in the last 62 
minutes from 20 billion to 50 billion, so somewhere between 20- 
to 50 billion, I think, is a reasonable estimate.
    Mr. Lance. I see. And then number 7 of your observations, 
there are tens of thousands of unfilled cybersecurity jobs in 
this country. Existing approaches are insufficient to train a 
large number in the workforce for what we need in this area.
    Based upon your experience first at MIT and more recently 
in Ann Arbor, what do the great universities need to do in this 
regard and what do we need to do at the level of community 
colleges, for example?
    Dr. Fu. That is a very good question. I think community 
colleges play a very important role as we develop the different 
kinds of skill sets. So actually, in fact, there are 209,000 
unfilled cybersecurity positions as of a year ago in the U.S., 
over a million unfilled positions globally.
    The problem is, I think, universities need to shift and 
adapt to the changing marketplace. Right now we are overrun 
with students. We cannot teach the number of students who want 
to take our security courses, and yet we are still not meeting 
the needs. In Michigan, for instance, we have the automotive 
companies talking about they have 30 unfilled FTE positions for 
cybersecurity and they are wondering why no one applies.
    Mr. Lance. Well, thank you. My time has expired. I hope to 
continue the discussion with all on the distinguished panel and 
particularly with you, Dr. Fu. Thank you very much.
    Mr. Latta. Thank you. The gentleman's time has expired. The 
Chair now recognizes the gentleman from California for 5 
minutes.
    Mr. McNerney. Well, I thank the Chair and I thank the 
panel. This is why I love this subcommittee and this committee. 
Great stuff happening. I am going to start with Mr. Drew.
    In your testimony, you noted that about 2 million of these 
IoT devices have been affected by this bot, botnet, and only 
150,000 were used in the attack. That means there are, what, 
1.85 million left. Are they still capable of carrying out new 
attacks, or have they been neutralized in any way?
    Mr. Drew. We have taken--the Internet as a whole has taken 
steps to try to neuter portions of it, but it is still a 1.5- 
or 1.6-million-strong-node botnet.
    Mr. McNerney. And they can attack not just Dyn servers, but 
they can attack real physical devices. Is that right?
    Mr. Drew. Yes, correct. I mean, the one fear about a botnet 
like this or a botnet of this size is that they are capable of 
doing something called a shaped attack, meaning that the 
operators of that botnet are able to generate any protocol, any 
application they want from those machines to be able to direct 
attacks of very specific nature to their targets.
    Mr. McNerney. So we have sort of a Damocles sword hanging 
over us right now?
    Mr. Drew. Yes. I think the saving grace we have had so far 
is that no one has been able to afford to rent all 1.7 million 
nodes. They have been renting them at 80 to 150,000 nodes at a 
time. Our biggest fear is that another adversary sees the power 
of this total force and begins to adopt attacks that follow a 
similar nature.
    Mr. McNerney. Mr. Fu, in your testimony, you recommended we 
should incentivize built-in security. I am kind of following up 
on Mr. Lance's question. What type of incentives do you believe 
would be effective to prevent the risks that you have outlined?
    Dr. Fu. I think that it all comes down to accountability, 
whether that be economic accountability or liability. Right 
now, there just isn't any kind of tangible cost to a 
manufacturer who deploys something with poor security. Also, 
there is no benefit if they deploy something with good 
security.
    Mr. McNerney. Well, thank you. This is a question to all 
witnesses. I want you to answer it with a yes or no.
    IoT devices span a wide range of products. Would it be 
feasible to create one set of security standards for all IoT 
devices? Starting with Mr. Drew.
    Mr. Drew. Yes.
    Mr. McNerney. Good.
    Mr. Schneier. No.
    Mr. McNerney. No?
    Dr. Fu. No.
    Mr. McNerney. No. Oh. OK.
    In the alternative, the Federal Government could establish 
minimum security standards for IoT devices and then direct the 
relevant Federal agencies to provide additional sector-specific 
requirements. Would that be feasible, yes or no, please?
    Mr. Drew. I am sorry. I missed the question.
    Mr. McNerney. Well, since there is a wide range of 
products, it might be feasible to ask the Federal Government to 
have the different agencies apply specific standards to those 
devices. Would that be feasible?
    Mr. Drew. Oh, absolutely, because that allows people to 
apply specific requirements and regulations to the area in 
which those devices operate.
    Mr. Schneier. I think no, because devices do multiple 
things.
    Dr. Fu. I think it depends.
    Mr. McNerney. OK. Good. Or not.
    Mr. Fu, several things. So many questions, so little time. 
You said that there is no cost to produce devices with poor 
security, that is pretty clear, but that IoT security is a 
solution--I mean, it should be a solution, not a problem. Could 
you expand on that a little bit----
    Dr. Fu. Right. So my fear is that consumers will not 
embrace technologies that will improve their quality of life in 
the future because they don't trust that it will be safe. It 
won't take too many more horror stories before people start to 
go back to their analog ways.
    So I view security as a solution enabling innovation. In 
the short term, yes, I would agree with the other witnesses 
that you may see a short-term problem, because you are going to 
be interrupting the product development and lifecycle. But in 
the long-term, we are going to see, I think, this actually 
producing new innovation, just like what we saw with the car 
safety regulation many decades ago.
    Mr. McNerney. Very good. Now, you also mentioned that 
devices should incorporate strong crypto security, 
cryptography. Isn't that asking a lot for these cheap devices 
to incorporate strong cryptography?
    Dr. Fu. Cryp---stop leading me, Bruce.
    Crypto--you can implement crypto on these devices. However, 
there are certain special cases, like medical devices, where it 
is more challenging. For instance, cryptography does draw more 
electrical power and it can actually reduce the battery, and so 
it does cause this sort of risk question. But in the general 
case, I think it is almost always the right answer to deploy 
the cryptography.
    Mr. McNerney. Well, I have one more important question, but 
my time has run out, so I yield back.
    Mr. Latta. Thank you. The gentleman's time has expired, and 
the Chair now recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. Thanks. I appreciate you all being here. And 
thanks, Mr. Chairman.
    And this has been really informative to me. Usually when I 
get memorandums getting ready for a meeting and it uses words 
like bots and terabytes, it kind of--my eyes glaze over. But 
this is important and it is interesting and I have appreciated 
what you are moving forward.
    One thing that--actually, Mr. Lance asked one of the 
questions I was going to ask. I was going to let Dr. Fu finish 
a thought, but one thing that you said earlier, that when we 
write the regulation or the law, that we are going to have to 
address this if and when we do, that we can't be too 
prescriptive, because the sign in blue ink, example you used, 
and I certainly understand that. And I think a lot of things 
that we have done in legislating has deferred a lot of that to 
the agencies and we say, well, everything is going to go in 
good faith, but we also have to be careful to make sure, as we 
have seen in a lot of other areas, not necessarily this area, 
that when an agency gets a little leeway, sometimes they go 
farther than Congress wants them to go, so that forces us to be 
more specific as we move forward. So we just have to find the 
right balance in that.
    You were talking about--I am interested in auto industry, I 
am interested in computer science technology, and jobs 
available. And you were talking about the auto industry and 30 
full-time equivalents, and then all of a sudden time ran out 
and you didn't finish your thought. Do you remember that 
thought, and can you finish, if you can.
    Dr. Fu. Sure, sure. So, I mean, Michigan is known as a 
State with quite a bit of manufacturing, and many of these 
industries are trying desperately to hire cybersecurity 
experts. I found one. Many of them have come to me from the 
automotive industry. They also tend to quit fairly often to go 
get other jobs. You have got to understand, at the career fair, 
you will see a line out the door for the Silicon Valley 
companies, the Googles, the Facebooks of the world. And for 
these other industries, it is very difficult for them to 
compete for this talent, not only because of the insufficient 
number of qualified skilled workers who are trained in 
appropriate security, but because just the competition is so 
great.
    Mr. Guthrie. So hence, one of the major companies, 
industrial companies, General Electric's ads about--so when the 
kid--the young man going or woman going to work for General 
Electric say, I am going to go work for a high tech company, 
they go, well, you are going to work for General Electric. So 
maybe that is why they are pursuing that----
    Dr. Fu. It is a good marketing strategy.
    Mr. Guthrie [continuing]. Marketing strategy to try to get 
people to come work for them, yes, absolutely, because they 
are--exactly proves the point we are saying here. As a matter 
of fact, they make refrigerators right outside of my district 
in Louisville, just so that--and they are very high tech. They 
are very high tech. As a matter of fact, they were showing me 
one, I couldn't figure out how to operate the refrigerator. It 
was automatic coffee, pods, and everything in it.
    Dr. Fu. My refrigerator tweets.
    Mr. Guthrie. Yep. That is what they do there.
    So let me ask you, in your testimony, you start with the 
basic premise that cybersecurity threats--this is Dr. Fu--are 
constantly evolving. This is a truism that we have heard 
reinforced many times. One of the issues is the identification 
of vulnerabilities. Can you tell us about how vulnerabilities 
are shared nowadays and if you have any recommendations moving 
forward on information sharing?
    Dr. Fu. Sure. So there are many different ways to share 
vulnerabilities. In the consumer world, for instance, there is 
the US-CERT, which is a coordinating agency, works in concert 
with DHS, works in concert with Idaho National Labs and other 
places to collect information from security researchers and 
then provide it to manufacturers. That is just one pathway.
    Other pathways are things like bug bounties rewards 
directly between the researchers and the companies. And then 
the third way that is becoming a little more disturbingly 
popular is just to sort of drop it in the public before there 
is a chance to deploy any kind of mitigating control or 
evaluate whether or not the report is true.
    Mr. Guthrie. OK. And you sort of talked about this earlier 
about that the hackers are going to look at the least secure 
device and then get into the system through that way, so--but I 
was going to ask you this again, what is the general level of 
security included in consumer grade Internet of Things devices, 
and have the recent attacks prompted any conversations that you 
are aware of about the security included in those devices with 
manufacturers?
    Dr. Fu. I have seen no good news about any security in any 
IoT device. Even in my own home, I have seen devices where I 
could trivially--anyone on the Internet could just break in and 
take complete control. This was a device I just picked up in 
one of those big box stores. I have no good news on the 
security built in to IoT devices today.
    Mr. Guthrie. Well, thank you.
    Mr. Chairman, that concludes my questions. I yield back.
    Mr. Latta. The gentleman yields back, and the Chair now 
recognizes the gentleman from New Mexico for 5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman. And thank you 
for holding this important hearing, to you and to our ranking 
member.
    As we all know, this is an important discussion since the 
proliferation of cyberattacks represents a serious challenge to 
both our digital and to our physical space. We saw the 
proliferation of cyberattacks this year all across the country, 
including with foreign actors as well being called out by our 
national security teams.
    Pertaining to the development of Internet of Things, which 
will provide a robust and important infrastructure for America, 
we also know that there is going to be more conflicts and 
dynamic networks that will result from that.
    Dr. Fu, you talked about shadow devices. Currently, Los 
Alamos National Laboratory is looking at ways to use the data 
they collect from all devices connected to a network to monitor 
and protect against malicious attacks. The LANL work addresses 
the issue of dynamic and ill-defined networks with devices 
joining and leaving. It constantly monitors these ever-changing 
networks to detect and respond autonomously to malicious 
behavior.
    Can you talk about the importance of us moving in that 
direction as well in developing this, maybe looking to national 
assets like our national laboratories and what we can learn 
there for tech transfer opportunities, whether it is in a 
secure space or an open space, to help us with these endeavors?
    Dr. Fu. Well, I think what I can do is I can say there is--
NIST has a document that talks about how to do this kind of 
security well, and I hope LANL is implementing these. And one 
is you have to know your assets at risk, so you enumerate that, 
and it sounds like that is what you are referring to. The 
second is to deploy compensating controls that match those 
specific risks. And then the third one that we often forget as 
consumers and industry is to continuously monitor the 
effectiveness of those controls, and that is where it gets to 
the shifting threat landscape. You deploy a security product 
today, might be effective tomorrow, might not work at all.
    Now, here is where I am a little skeptical of LANL and 
other agencies that claim they know all of their networks. I 
know as a fact that most hospitals refuse to look at the 
security of their most sensitive networks because they are 
afraid of tipping over things like linear accelerators, 
radiation therapy devices, very sensitive machines. They have 
actually rebooted from very simple security products. So if you 
are in a facility that has nuclear materials, fissile material, 
I would be very skeptical of a claim where they have thoroughly 
vetted the embedded systems to see how well they have survived, 
unless they have actually tipped something over.
    Mr. Lujan. Is there a benefit, though, with working with 
these national assets to assist us in the private sector?
    Dr. Fu. I think there can be a benefit for safety-critical 
issues for places like LANL. I think there is quite a bit of 
expertise in what is called embedded security at many of the 
national labs. However, this is a very interdisciplinary 
problem, and I have seen this come up already in my 
vulnerability reports to different agencies. They will often 
tell me, I am sorry, we don't have an in-house expert on that 
particular subject of this healthcare situation, let me try to 
help you, and they usually have a difficult time finding a 
partner.
    Mr. Lujan. Mr. Schneier, as more and more of our critical 
health, energy, and finance infrastructure is brought online, 
the things connected to the networks will need to be secured 
from inception to delivery. Are you able to speak specifically 
to what we can do with securing the technology foundations and 
supply chains through the Internet of Things, whether it be 
through semiconductor chips, secure IoT device operating 
systems, secure communication protocols, or secure device 
access management?
    Mr. Schneier. So this is actually, I think, you know, part 
of the big problem. Security has to go all the way down. So 
someone there, I think, who left talked about that phone that 
surreptitiously, unbeknownst to the consumer, would send copies 
of your text messages to China. Now, on the plus side, it was 
cheaper, but you are not going to know, and that could be the 
software. We are worried about switching equipment that we use 
in our country that comes from China, because we worry about 
the hardware, that there might be some hardware switch that 
will eavesdrop or turn off in the face of hostilities. And 
these are very complicated questions. And any place in the 
stack, we can cause an insecurity that affects the others. Lots 
of people are working on this, there is a lot of tech here, but 
this is, I think, an extreme worrisome issue when we deal with 
global manufacturing.
    So this is an American device made, I believe, in China. 
And many of our devices are made in countries that might not be 
as friendly to us at all times as we would like. And while we 
have tech that will hopefully detect these things, it is an 
arms race, and right now there is an edge on the attacker. It 
is easier to hide a vulnerability in something like this than 
it is to detect it.
    Now, we also use that, right? I mean, the NSA uses that to 
spy on our enemies, so there is some good here too, but I think 
by and large it is dangerous for us.
    Mr. Lujan. And, Mr. Chairman, as my time runs out, I think, 
Dr. Schneier, I will maybe submit a question to you pertaining 
to maybe expanded use of trusted foundries pertaining to 
hardware, and then we can have an expanded conversation in that 
space.
    Mr. Schneier. I would be happy to.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. Latta. Well, thank you. The gentleman's time has 
expired, and the Chair now recognizes the gentleman from Texas 
for 5 minutes.
    Mr. Olson. I thank the Chair.
    And welcome, Mr. Drew, Mr. Schneier, and Dr. Fu. I have to 
admit, last night I lost a little sleep preparing for this 
hearing all because we focused on September 21st of this year 
when a Mirai botnet launched a DDoS strike on the 
KrebsOnSecurity. Over 600 gigabits per second swarmed them. And 
then a month later, October 21st, the same bad actor went after 
Dyn.
    I lost sleep because after 9 years in our Navy as a naval 
aviator, 8 years working with the Senate side as a senior 
staffer for two Texas senators, and four terms in the House, I 
know the biggest threat to our security and our prosperity is 
not bombs, it is not missiles; it is cyberattacks and 
cybersecurity, ones and zeros.
    What bothers me most about what happened earlier this year 
is that the attacks--the execution was exactly what Coach 
McHugh told me when I was 9 years old on the football field. He 
got his little--drew a play in the sand: Here are the 
defenders, there are two over there. We will swarm them with 
four offensive people, score a touchdown. That is exactly what 
these guys did, nothing hard, nothing new, and yet they had the 
success of having 600 gigabits per second swarm 
KrebsOnSecurity.
    And so in this environment, we can't be reactive. We have 
to be proactive. Our Government has to be proactive. Now, I 
said the word ``Government'' and said ``proactive.'' Looking 
around the room here, some people shook their heads and smiled. 
They know those words don't go together, but somehow we have to 
come together to address this problem.
    And, Dr. Fu, I love your term about we have to have it 
built in, not bolted on. I know Mr. Lance asked questions about 
that, but I want to further elaborate on it. Say you went 
crazy, you ran for Congress, you won, you are a member of this 
committee. How would you ask--what do you think we should do to 
help out our American economy to make sure we control these 
attacks and be proactive instead of reactive? What is our role 
here in DC?
    Dr. Fu. All right. Thank you. Let me first correct the 
build it in, not bolted on is actually a phrase my community 
has been using for many years, including Mr. Schneier is behind 
that quite a bit.
    But I would say to really get out in front of this problem 
and be proactive, we haven't even done what I would consider--
if I were talking with my students, I would say, you have to do 
your prelab first before you do the real work. And the prelab 
is actually going out and actually getting firsthand 
information from some of these constituents. I am doing that 
and that is where I am getting my firsthand information, from 
the executives themselves, from the engineers, and I am just 
picking up horror story after horror story. I can't relay that 
to you in this manner, because you haven't seen the people I 
have talked to. I think that needs to happen. I think there 
needs to be some congressional visits to these sites. I think 
they need to go to the universities, I think they need to see 
where the struggles are happening, what are the barriers.
    I believe that likely after you see the same problems that 
I am seeing, you are probably going to start thinking about, we 
need to have incentive systems built in economically. I don't 
know what these are going to resemble. Could they be 
regulations? Maybe. Could they be more financial incentives or 
financial penalties? Maybe. Is it more about corporate 
liability? Perhaps. I don't know the answer on the mechanism, 
but I know that we need to get more people doing congressional 
visits to these sites to understand where the problems are 
borne.
    Mr. Olson. Thank you.
    Congressman-elect Drew, your concerns about that how as we 
get involved in DC, how laws--if you could write laws, how 
would you write the laws to help your organization overcome 
this incredible challenge we have with these cyberattacks?
    Mr. Drew. I agree entirely with regards to us having the 
right incentives to make sure that, whether I am a business 
buying technology or whether I am a consumer buying technology, 
that we have the right incentives, whether they are economic, 
liability, or regulation. I completely agree with that mind-
set.
    And I do think that there are a significant number of 
existing frameworks with regards to each of those ideals around 
health, safety, convenience, and use with regards to these 
threats, as well as with regards to these technologies.
    Mr. Olson. And very quickly, Congressman-elect Schneier, 
your comments about how would you approach this from a Federal 
Government role.
    Mr. Schneier. So I think you have a serious problem here, 
and I think we have in a lot of areas, that we are now at the 
point where the speed of technology exceeds the speed of law. 
And that has probably changed in the past decade or so. It used 
to be laws could lead technology and now it has reversed. And 
so we need to figure out a regulatory structure, an incentive 
structure, liability structure that is technologically 
invariant; that we can't focus on technology and rely on them, 
but focus on people and incentives, because that is what is 
invariant. Technology will change.
    And you are right, these DDoS attacks are kindergarten 
stuff. It is basic, it is not sophisticated, and yet highly 
effective. The sophisticated stuff is worse.
    Mr. Olson. Thank you. I yield back the balance of my time.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and the Chair now recognizes for 5 minutes the gentleman from 
Ohio.
    Mr. Johnson. Thank you, Mr. Chairman. And thank you, 
gentlemen, for joining us today.
    Having spent nearly 30 years of my professional career in 
information technology, I want to get a little bit more into 
the technical aspects of some of the things we are talking 
about this morning, particularly traditional DDoS attacks 
versus these connected device DDoS attacks.
    Mr. Drew, as I understand it, these DDoS attacks have been 
around almost as long as the Internet itself has. They have 
certainly gotten worse over the last few years, but at least 
for traditional DDoS attacks, we know that--we know how to 
defend them against--using techniques like IP address 
blacklisting or white listing and IP packet inspection, among 
other techniques. Can you tell us a bit more about those 
defensive techniques, why they have been successful in 
defending against traditional DDoS attacks?
    Mr. Drew. I would say about every 3 years or so we 
encounter an evolution of capability with regards to DoS 
attacks. Every 3 years or so, we have somewhat of a backbone 
impairment event on the global Internet that is resulting of 
adversaries developing new capability based on either new 
weaknesses or new technology and then directing that capability 
to the backbone. And so I would say that the community at large 
has been fairly proactive as well as reactive in investigating 
what those bad guys are doing, the techniques that they are 
evolving and shaping, and making sure that our capability to 
respond is built into the platform, or in some cases, bolted 
onto the platform by redirecting traffic and scrubbing it.
    So what I would say is what scares us about IoT attacks is 
just the enormous potential scale, whereas, you know, the 
typical botnet that is involved in these attacks over the past 
handful of years to up to a decade has been in the tens of 
thousands. We now have the potential of devices in the 
millions. And network capability for filtering and scrubbing 
has not scaled at that sort of a factor. So it is something 
that we are taking with great notice and great pause to make 
sure that we can invest in our capability and technology to 
prepare for that.
    Mr. Johnson. Is it safe to say that the majority of these 
defensive techniques have worked because they target the way 
that traditional DDoS attacks use spoofing and amplification?
    Mr. Drew. I would say that with regards to what the traffic 
looks like itself, meaning how that traffic is executed upon 
the victim, there have been slight evolutions in the way that 
that traffic looks, but for the most part, that the definition 
that has an upper and lower control in it, that is fairly well 
understood. And so the technology is geared to be able to 
operate within that sort of control parameter. It is really--
the big issue is the scale in which that the devices are coming 
at that victim and being able to launch those sorts of attacks.
    Mr. Johnson. OK. So to get kind of to the heart of the 
matter of why we are here today, because from what we have been 
told, this Mirai botnet doesn't use spoofing or amplification. 
Is that accurate?
    Mr. Drew. That is correct. It uses what is called a shaped 
attack where it can send any protocol or any packet that it 
wants to.
    Mr. Johnson. OK. Instead, the botnet is built out of these 
individual connected devices, and you would say now there are 
potentially millions of them out there that are so numerous 
that spoofing and amplification aren't even necessary. It is 
the total--it is just a deluge of traffic from those connected 
devices, correct?
    Mr. Drew. That is correct. If you wanted to send a large 
amount of traffic in the past, you would use an amplification 
attack.
    Mr. Johnson. OK.
    Mr. Drew. Now with devices like this, you don't need that.
    Mr. Johnson. Well, you know, I think we need to dig into 
this a little more then, because when we were talking about 
defensive techniques before, most of those defensive techniques 
seem to rely on DDoS attacks that use spoofing and 
amplification. If a DDoS attack doesn't use spoofing or 
amplification, and you began to allude to it a little bit, how 
do techniques like IP address blacklisting or white listing or 
IP packet inspection work and how effective are they?
    Mr. Drew. I would say, in fact, they are probably more 
effective on nonspoofed traffic. And so the overall capability 
to inspect and mitigate is more capable when the traffic is not 
spoofed. Again, I am going to go back to the scale issue, is 
that a lot of that technology is built for the, you know, 
hundreds of thousands of inspections at the same time as 
opposed to the millions of inspections at the same time.
    Mr. Johnson. My time has expired, but I guess it is safe to 
say we have got a lot of work to do and we have got to stay on 
this because we have got to develop new techniques to handle 
this new threat. Correct?
    Mr. Drew. Absolutely.
    Mr. Johnson. OK. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentleman from Missouri, Mr. Long. 
Five minutes for questions, please.
    Mr. Long. Thank you, Mr. Chairman.
    And, Mr. Drew, I understand that newer brand name devices 
are generally safer and less vulnerable to cyberattacks, but 
how much blame would you put on low end manufacturers cutting 
corners on security with the type of attack that happened in 
October?
    Mr. Drew. Well, with specific regards to the type of attack 
that happened in October, a vast majority of the devices were 
those low end manufacturers from other countries. We spoke to a 
vast majority of those vendors. Those vendors had not really 
contemplated the idea that their devices could be used in that 
sort of fashion. Some were mortified and were trying to wrap 
their head around how they could deploy cybersecurity. And, 
frankly, other manufacturers had no interest in deploying 
because they had every belief that their consumers would 
continue to purchase their product.
    Mr. Long. OK. This is directed to all of you. I guess we 
will start with Dr. Drew since he is T'd up there, but what are 
some ways hardware and software manufacturers can band together 
to prevent a cyberattack like the recent one?
    Dr. Fu. So I would say----
    Mr. Long. Maybe we won't start with Dr. Drew.
    Dr. Fu. Oh.
    Mr. Long. No. That is fine. I was just----
    Dr. Fu. OK. Were you referring to me? I am sorry.
    Mr. Drew. He is Dr. Fu, I am Mr. Drew.
    Mr. Long. Oh, OK. I am sorry.
    Dr. Fu. But together we are interdisciplinary, and I would 
say the key point here is interdisciplinarianism for the 
hardware and the software.
    There is a good--function follows form. And if you look at 
the educational system, you will see that the people trained on 
hardware and the people trained on software don't actually have 
sort of the closest cultures in terms of education. I think it 
is going to be very important to educate people in a way that 
brings hardware and software together, because otherwise you 
are not going to have the workforce that is going to be skilled 
and trained to be able to solve these problems. So that is 
certainly something I am trying to do personally, is when I 
train students, I train them in both hardware and software, 
because you just can't abstract it away anymore.
    Mr. Long. So, Dr. Schneier.
    Mr. Schneier. So I think this is a particular challenge----
    Mr. Long. Mister. I am sorry. I have got too many--I can't 
see this angle with my glasses. I need new glasses or a 
different angle, I guess. There you go.
    Mr. Schneier. I think it is a particular challenge, because 
engineering operates in silos. The companies that made those 
DVRs got a chip with software on it. They didn't inspect it, 
because it is a blob, and they put it in their device. They 
sold that device to some other company that put their name on 
it, and sold it to the consumer. And you have this chain which 
is very opaque, and companies will hand off to each other. So 
banding together, I think, is going to be very difficult. And 
the way we can do that is to incent it. If I have liabilities 
that go up the chain, if I have regulations that will affect 
each other, then I am giving the companies reason to not just 
say, yep, this works, I am going to put it in my device and I 
am going to sell it cheaply. This is hard, and I don't have a 
good, crisp answer. Hopefully Mr. Drew does.
    Mr. Long. That is why we put him last.
    Mr. Drew. Yes. I would say that I agree with regards to 
cheap IoT. I think with regards to cheap IoT, the focus 
primarily is on the specific set of application that they are 
looking to develop. They get hardware from another 
manufacturer, they get the baseline operating system from 
somebody else, and they just develop their application and 
don't really know how it all interconnects together as a global 
ecosystem.
    I would say on more emerging IoT that is a bit more 
integrated and a bit more capable of being interconnected to 
other IoT devices, we are seeing a lot more sort of discipline 
and knowledge with regards to marrying both hardware and 
software disciplines together, as well as being able to achieve 
higher security standards as they interact with each other from 
device ecosystems. So a long way to go, but a lot of growth in 
that particular area.
    Mr. Long. Let me ask you something else. Could the recent 
cyberattacks have been avoided if the targeted sites registered 
with more than one company that provided the same services that 
Dyn provides?
    Mr. Drew. Presumably, yes. What we did see, though, on the 
Dyn attack is that a number of the domains that were targeted, 
they fell back to another authoritative server, and the bad guy 
detected that and then launched an attack against that other 
authoritative server. So, you know, in this case, the bad guy 
was following specific victims and reacting to them as they 
mitigated and moved.
    Mr. Long. OK. Yes. I heard you say that earlier in the 
opening. I think--Dr. Fu, how's that? Is that OK? Dr. Fu, to 
what extent did default passwords play a role in these recent 
cyberattacks we have been discussing today?
    Dr. Fu. So default passwords played a key role because it 
was the entry point to take over this army of unwitting agents 
to attack Dyn.
    Default passwords are everywhere. In my testimony, I 
provided a graphic of default passwords for medical devices. 
There is nothing stopping the same attack from happening to 
another industry, other IoT products. Default passwords are a 
big problem. The fact that we are even relying on passwords at 
all is a big problem.
    Mr. Long. OK. Thank you all.
    My time has expired, and I yield back.
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman.
    The Chair recognizes the gentleman from Florida, Mr. 
Bilirakis. Five minutes for questions, please.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    On October 21st, the attack is unprecedented in size, and 
thought unforeseeable. On January 2015, the FCC staff reported 
the outlined security risks--thank you--Internet of Things 
devices present, including potential attacks on other systems.
    Dr. Fu, it appears that one of the reoccurring problems 
identified in your testimony is the use of insecure operating 
systems, which are actually easier to infect a target for 
distributed denial of service attacks. Have you seen industry 
react to these issues and move forward more stable operating 
systems, and are there impediments to making such a switch?
    Dr. Fu. I have seen industry move to better operating 
systems, but like most communities, there is a wide 
distribution. There is a leader, there is maybe not the leader.
    I still see Windows XP, which is a decades-old operating 
system, in critical systems. There is a photograph of one 
Windows XP system in a water treatment facility in Michigan in 
my testimony controlling water pumps for the city.
    Windows XP is susceptible to the last decade of already 
released malware. It doesn't take anyone, more than a kid in 
their basement, to be able to cause a problem. It hasn't 
happened, because no one's wanted it to happen.
    It is all about the economics. Certainly on the high-end 
devices, like linear accelerators, for example, or radiation 
therapy devices, you are talking multimillion-dollar machines. 
Certainly when a hospital buys a new device, they are more 
likely to get a new operating system because it just comes with 
the new system. However, most hospitals have capital equipment 
costs. And they don't want to have to buy a new MRI or whatnot 
every 10 years. You know, it should last 20 or 30. This is why 
you will still see Windows 95 machines, you will see Windows 98 
machines--the year is important--in hospitals, because when 
they go to the manufacturers saying, hey, we really want to 
have an operating system that we can keep secure, they will 
say, oh, sure, just why don't you buy a whole new machine.
    And so there was this unwritten assumption that the 
software would be maintained. It may not have been written into 
the agreement, but the healthcare community felt that it should 
have been kept secure, kept maintained, but from the 
manufacturing standpoint, it was, we have provided you this 
device.
    Mr. Bilirakis. Thank you. Reports show that many devices 
used in the October attack were situated overseas. While some 
seek to regulate devices in our own country, how do we protect 
ourselves from devices that are outside the U.S.?
    Dr. Fu, and then if someone wants to chime in, that is OK 
too.
    Dr. Fu. Sure. Let me just comment briefly, and I will let 
my fellow witnesses opine.
    I think the important thing about computer security is not 
to be able to put yourselves in a secure environment, but you 
need to be able to tolerate an insecure environment. We are 
never going to be able to make networks, you know, blissful 
places full of rainbows. The networks are always going to be 
hostile. So we need to make sure that whatever we put on there 
is going to be able to tolerate malicious traffic. DDoS 
attacks, however, are extremely hard to defend against because 
they cut at the core of where we are least prepared, and that 
is high availability.
    Mr. Bilirakis. Anyone else want to comment on that?
    Mr. Schneier. So it is two things. I think that U.S. 
regulation, especially if it is U.S. and Europe and some more 
major markets, can cause a new environment, which raises the 
tide for everybody, because companies are not going to make two 
devices. They are just going to make one device and sell it. So 
we can make a difference with us and like-minded countries, 
like we can in so many other industries.
    But Dr. Fu is correct that we can't assume ever a benign 
environment; that it is going to be a combination of making the 
devices that we can touch more secure, which means the 
integrated devices are more a minority, and then building 
infrastructure controls to secure against this malicious 
minority. And it will always be that.
    Mr. Bilirakis. Thank you.
    Mr. Drew, do you want to comment quickly, because I have 
one more question?
    Mr. Drew. I was just going to say that we have a 
fundamental belief of ensuring that we can try to route packets 
on the backbone that are based on reputation. So the more that 
businesses and backbones can collaborate together on data and 
route traffic based on reputation, I think the better prepared 
we are going to be.
    Mr. Bilirakis. Thank you.
    One of the biggest concerns--for Dr. Fu. One of the biggest 
concerns of the future distributed denial of service attacks is 
the potential impact on hospitals and their patients. We 
already know that hospitals are targets in other areas, such as 
ransomware hacks. Question for Dr. Fu: How can hospitals best 
protect themselves from these threats and their current 
technology, and should industry prioritize the healthcare 
sector in preventing current cyberthreats?
    Dr. Fu. Right. Well, in the short term, hospitals are in a 
sticky place. There is not a whole lot of mitigating solutions. 
So the best medicine I can recommend for hospitals right now is 
to really know their inventory of medical devices. I saw some 
discussion yesterday in a DHS report about a bill of materials 
of software. Hospitals don't even know what software is running 
on the inside of their facility because the manufacturers don't 
know themselves what are on those medical devices. If we only 
knew what was on the medical devices, we could better 
understand what risks we are taking.
    Mr. Bilirakis. Thank you very much.
    I yield back, Mr. Chairman. I appreciate it.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentlelady from Indiana, Mrs. 
Brooks. Five minutes for your questions.
    Mrs. Brooks. Thank you. I am going to follow up, Dr. Fu, 
and if you would explain a bit more about what--your concern is 
is that the devices that are being used actually in the 
hospitals, the hospitals are not aware of what is on those 
devices. And so what kind of mechanisms should we have so that 
hospital systems are fully aware of what is in their hospital?
    Dr. Fu. Right. So let me just frame the context. So 
hospitals want to make sure that they have continuity of 
operations of their clinical work flow so they don't have to 
shut down, like the MedStar system shut down in this area for 
several days. And so the problem is when you don't know what 
your assets are, how are you going to protect that, if you 
don't know what ports are open? The manufacturers, they are 
not, I would say, willfully causing harm, as far as I know, but 
they are simply not providing enough information so that the 
hospital staff can do their jobs to assure the continuity of 
their clinical facilities.
    So providing a bill of materials of what software comes on 
a device when it enters the hospital, it won't completely solve 
the problem, but it is going to really help, because you can't 
do step two until you do step one. You have to know your 
assets, you have to know your inventory before you can 
effectively control security mitigation controls.
    Mrs. Brooks. And so while that has obviously lifesaving or 
life-ending implications, what other sectors are you most 
concerned about--and this is for the panel--that--you know, 
that the sector integration, so to speak, of devices within 
maybe the system is not known?
    Dr. Fu. I will just say public utilities, water, gas, 
electric. It surprises me how people just sort of laugh about, 
oh, we don't have security, hahaha. And, you know, we are not 
going to be laughing when the lights go out.
    Mr. Schneier. So I think looking at it in sectors is almost 
self-defeating. So what we are worried about is interactions. 
And, you know, if you asked somebody a month and a half ago 
whether a vulnerability in a Web camera can affect Twitter, you 
know, people would say no. And in a lot of ways, we barely know 
how the Internet works. I mean, Mr. Drew's answer of whether 
this particular defense would have mitigated this particular 
attack, and the answer was we are not really sure. And it is 
the emergent properties of interconnecting everything that 
causes the vulnerabilities.
    We focus on a sector, we risk missing the big picture. And 
they are all computers, whether they have wheels or propellers 
or in your body, and they affect each other, they are on the 
same Internet. So I urge you to think holistically and not--I 
mean, there are sectors that are more vulnerable, more 
critical, that is obvious, but the cause of the vulnerability 
could come from nowhere.
    Mrs. Brooks. Mr. Drew, a question whether or not--what your 
thoughts are as to whether or not hacking back or some other 
form of active defense should be permissible. Thoughts on that?
    Mr. Drew. I know that this has been a fairly large debate 
within my industry. It has been a fairly large debate within 
the U.S. We have these conversations on a regular basis about 
green viruses where if we know a particular exposure exists and 
we know that we can write software to go out and patch this 
system on the user's behalf to get the malware off the system, 
then we would be better protecting both the consumer as well as 
the Internet as a whole. And I think that that is a fairly dark 
road to go down. I think that it is an excuse for us not fixing 
the ecosystem and providing the right incentives in the right 
locations, and potentially has impacts that, you know, the 
author writing that software isn't necessarily aware of, as he 
is touching a pretty broad set of devices out on the ecosystem. 
So I would say I fear more of the consequences of that than I 
do pushing the right incentives in the right layers.
    Mrs. Brooks. And going back to the question about whether 
or not we have the appropriate safeguards in place, we have 
209,000 job openings right now, according to Dr. Fu, and what 
are the programs, degree programs or other types of 
certification programs, that should be offered that we are not 
offering enough in our higher ed institutions or training 
programs? And, you know, are degrees necessary or do we need to 
have different types of certifications short of degrees?
    Dr. Fu. I think we need all of the above, especially it is 
a little known discipline called embedded cybersecurity, but 
this is very related to IoT, bridging the hardware and the 
software. I think we need both at the community college level, 
I think we need both at the 4-year college, both in the 
graduate studies, also especially in advanced master's programs 
for already skilled workers who are perhaps experts at building 
cars or designing cars but need to know how do you build 
security into that thinking. There aren't enough opportunities 
for those workers to come back to get that training.
    And a final comment is the pipeline. I think in the 
engineering, in some of the sciences, we have difficulty, I 
think, attracting, tapping new resources, different 
demographics. I think we need to be much more--doing much more 
outreach to high schools and some of the kids who are coming up 
to encourage them to go into these fields, and especially women 
and minorities.
    Mrs. Brooks. Thank you all for your work. I yield back.
    Mr. Burgess [presiding]. The Chair thanks the gentlelady. 
The gentlelady yields back.
    And the Chair recognizes the gentleman from Illinois, Mr. 
Kinzinger. Five minutes for questions.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you all for being here, taking the time and 
elaborating on these issues.
    Mr. Drew, for you, is it accurate to categorize the recent 
DDoS attacks as an international issue?
    Mr. Drew. It absolutely is an international issue. The 
device manufacturers were foreign. The majority of the 
locations where the devices were located was foreign. You know, 
most of what we are talking about here today, from a regulation 
perspective, wouldn't have a direct significant impact on at 
least the adversaries that were involved in the October 21 
attacks.
    Mr. Kinzinger. Do you know, are there any other countries, 
international groups, et cetera, focused on these security 
issues right now?
    Mr. Drew. I mean, yes. I mean, there are a number of 
countries that are focused on very progressive cybersecurity 
controls. In Great Britain, as an example, there is a 
significant amount of cybersecurity work with regards to 
integrating that into the telecommunications sector, so--
meaning that if you are going to be offering telecommunication 
services or if the Government is going to be purchasing 
services, you have to be certified at a certain cybersecurity 
level.
    Mr. Kinzinger. So are you seeing, through these groups and 
countries, any kind of a consensus on how to move forward? And, 
I guess, what recommendations would you give to Congress to, in 
essence, marry up to that or work together on those issues, to 
help the conversation?
    Mr. Drew. You know, I am going to go back to one of my 
original points, which is I do believe that we are missing, you 
know, defined standards in this space, that we can get some 
adoption around, that we can get some pressure focused on, and 
we can change buying and investment patterns.
    I think that by setting those standards and by setting them 
by both domestic and international groups, whether it is NIST 
or ISO, you know, setting these standards so that you can force 
buying behaviors in both consumers as well as businesses I 
think is going to be a major step forward.
    Mr. Kinzinger. A lot of reports are indicating, as we have 
discussed, a staggering increase in the number of connected 
devices over the next few years. It is a number we heard today 
anywhere between 20 and 50 billion devices, which is unreal. 
What do you think policymakers and stakeholders should think 
about, in general, regarding cybersecurity and interconnection 
moving forward? What would be kind of the takeaway you would 
want us to leave with?
    Mr. Drew. I think innovation is progressing faster than 
discipline. And, you know, what tends to happen is we go on a 
biorhythm of a lack of discipline causing significant 
unintended and unforeseen consequences. Our ability to adapt 
and respond to those is the thing that is going to keep that 
infrastructure protected and as well as continue to evolve it.
    So I think that, you know, the average CSO has to manage 75 
separate security vendors, and that is to bolt on security 
controls for products and services that they are purchasing. 
And when we get one of those dials wrong, there are some 
significant consequences as a result. And so focusing on making 
sure that premarket controls are placed in that infrastructure 
is going to be a significant adaptable win for us.
    Mr. Kinzinger. Dr. Fu, Congressman Long brought up the 
issue of default passwords, and you stated that we should get 
away from passwords all together. Can you elaborate on that?
    Dr. Fu. I mean, so passwords are just intrinsically 
insecure. You know, we are human. We write them down. We choose 
poorly. So pretty much any password system is going to 
encourage unwise security behavior. There are some technologies 
out there. There is one company in Ann Arbor, for instance, 
Duo, that does something called two-factor authentication where 
you have, for instance, a mobile phone in addition to a 
password.
    But at the heart of it, we need to figure out other ways. 
And I am going to defer to the other witnesses for suggestions 
on that. But I just feel we really need to retire passwords. We 
need to kill those off, because these are going to be bringing 
down our most sensitive systems.
    Mr. Kinzinger. Do any of you want to elaborate on that at 
all?
    Mr. Schneier. So I largely agree. I mean, there will always 
be a role for passwords. There will be low-security devices, 
applications, low amounts of latent time, times when you 
generally need security for a short amount of time. But, in 
general, passwords have outlived their usefulness, and there 
are other technologies. You can secure your Gmail account now 
with a code that comes to your phone as a second factor. I can 
sure this with my fingerprint.
    There are many other systems that give us more robust 
authentication, and I think that would go a long way in a lot 
of our systems to help secure them. Because we are talking 
about two different ways to break into things. We are talking 
about vulnerabilities, which are exploited; we are talking 
about bad user practice, which is also exploited. And if I can 
get rid of one of them or at least reduce it, I am going to go 
a long way to making things better.
    Mr. Kinzinger. OK. Great. Well, I am out of time, and thank 
you all for your time.
    And I will yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair would recognize Mr. McNerney for the purposes of 
followup questions.
    Mr. McNerney. I want to thank the Chair for an opportunity 
to ask another question. This one is a little philosophical, so 
I hope you don't mind.
    Mr. Schneier, you mentioned that the attacks are easier 
than defense on this complex system and making more complexity 
opens up new vulnerabilities. But biological systems work in 
the other way. They build complexity in order to defend 
themselves. Is there some kind of parallel we can learn from on 
this?
    Mr. Schneier. So in the past decade or so, there has been a 
lot of research on sort of moving the biological metaphors of 
security into IT, and there are some lessons and there are some 
things that don't work. Biological systems tend to sacrifice 
the individual to save the species, which is kind of not 
something we want to think about in IT or even, you know, in 
our society.
    But, yes, there are ways of thinking about a security-
immune system, but the complexity of a biological system is 
complexity that is constrained. So, for example, you know, we 
all have a different genome, and that gives us a resistance, 
our species, against a disease. And you might be able to do 
that with an operating system, but it is not going to be two or 
three, it is going to be billions of different operating 
systems, which is suddenly much more expensive by, you know, 
orders and orders of magnitude.
    So a lot of the lessons don't apply. Some do, and the 
researchers are trying to learn from them. And that is kind of 
the new cool way of thinking, and I think there is a lot of 
value there. But still, complexity, unintended consequences, 
interconnections, the attack surface, the enormous attack 
surface we are talking about, makes it so that in at least the 
foreseeable future, attack will have the advantage. My guess is 
there will be some fundamental advances in security which will 
give us, maybe not in our lifetimes but eventually, a defensive 
advantage, but no time soon.
    Mr. McNerney. All right. Thank you.
    Mr. Chairman, I yield back.
    Mr. Burgess. Thank you.
    Mr. Schneier--just recognize myself for a followup 
question. You had mentioned along this line and then you had 
mentioned in, I think, response to an earlier question about 
the autonomous vehicles. And, yes, yesterday in our Commerce, 
Manufacturing, and Trade Subcommittee, we did have a hearing on 
autonomous vehicles. So particular vulnerabilities or places 
where the focus should be as autonomous vehicles, self-driving 
vehicles develop as a separate entity?
    Mr. Schneier. So I think it is a really interesting test 
bed for what we are thinking about. And I don't know how much 
detail you went into on the vulnerabilities. What we learn is 
the vulnerabilities are surprising. There is one attack that 
used the DVD player as a way to inject malware into the car 
that controlled the engine. Now, that shouldn't be possible, 
but surprise. And similarly, I am worried about the USB port on 
the airplane seat potentially controlling the avionics. The 
airline companies will say that is impossible, but those in 
computer security don't believe it.
    So, again, the more holistic we can be, the better. There 
are always going to be surprises. So to get back to the immune 
system model, how do we build resilience into the system? How 
do we ensure that it fails safely and fails securely? How do we 
ensure or at least make it more likely that a vulnerability 
here doesn't migrate to another vulnerability there causing 
something more catastrophic? So the more we can look at the big 
picture, the less we focus on this or that, because it is the 
connections. And so if you think about it, it is exponential.
    I mean, I have five things, that is 25 connections. I have 
100 things, that 10,000 connections. It goes up by a factor of 
square. I just did some math--so sorry--here, but--now, that is 
the vulnerability, and that is why this is so--that is why 
complexity is such a problem.
    Mr. Burgess. Well, I mean, I had posed the question 
earlier, and, really, this is for any of the three of you who 
wish to answer, you know, the question of thinking like a 
criminal. But, you know, really, we are still playing checkers 
and they are playing three-dimensional chess or perhaps a 
multifactorial level of three-dimensional chess. So, I mean, 
what are the things that keep you all up at night? What are the 
things that you have wondered about?
    Mr. Drew. I would say the best advancement in the security 
space for us, as an example, is behavior analytics. It is being 
able to monitor the network, monitor the enterprise, monitor 
our infrastructure, and look for behavior that we have never 
seen before to determine whether or not that is unauthorized 
traffic or not.
    But no matter what, that technology is based on a 
compromise already having occurred, a bad guy already being in 
the network. And so our ability to be more proactive, our 
ability to get ahead of that attack and predict those attacks 
before they occur and change the technology before they can be 
exploited, that is where we need to migrate.
    Mr. Burgess. Mr. Schneier.
    Mr. Schneier. I worry about catastrophic risk. You know, 
the Dyn attack is interesting. It was one person had the 
expertise to figure out how to do it. He encapsulated his 
expertise in software, and now anybody can do it. So it is 
unlike my home where I only have to worry about the burglars 
whom driving to my home is worth the bother. And there is some 
bell curve of burglar quality, and the average burglar is what 
I care about. On the Internet, it is the most sophisticated 
attacker I care about, anywhere in the world, because of the 
way computers encapsulate expertise into software.
    Mr. Burgess. Dr. Fu.
    Dr. Fu. I worry about something a little more human, and 
that is sort of bureaucracies. I worry about the inability to 
change. I worry about being stuck saying, well, we have never 
done it that way before. I worry about saying things like, you 
know, well, that is unprecedented. Well, the Internet of Things 
is unprecedented and so there are going to have to be some 
changes. So I do worry that we won't have the strength and 
resolve to do it. It will take some guts, I think, but this is 
foresight.
    In the safety world, we saw this with handwashing. In the 
1840s, handwashing was not even a thought that crossed your 
mind until after Ignaz Semmelweis. It took 165 years to get to 
the point where handwashing is common. It is going to take some 
time for security, but the time is ripe to do something now and 
to do something wise.
    Mr. Burgess. And I would just note for the record, I think 
Dr. Semmelweis did end up dying of a strep infection from not 
handwashing. So it----
    Dr. Fu. He also messed up his experiments. He didn't write 
them up well.
    Mr. Burgess. Well, wonderful. This has been a very 
informative hearing.
    Seeing no further members wishing to ask questions, I do 
want to thank our witnesses for being here today.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
A letter from the Online Trust Alliance; a letter from the 
National Electrical Manufacturers Association; a letter from 
the College of Healthcare Information Management Executives; a 
letter from AdvaMed, the Advanced Medical Technology 
Association; and a letter from CTA.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind Members 
they have 10 business days to submit additional questions for 
the record. I ask the witnesses to submit their response within 
10 business days upon receipt of the questions.
    I didn't say it, but, without objection, so ordered that 
all those things are inserted into the record.
    And, without objection, the subcommittee is adjourned.
    [Whereupon, at 12:19 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    The explosive growth of connected devices--or the Internet 
of Things--has the potential to make a major impact on how 
consumers, industry, and even State governments measure and 
manage information from their homes and communities.
    Companies back in my home State of Michigan are on the 
leading edge of this industry. From established businesses to 
startups, businesses are looking to the future and that, 
undoubtedly, includes IOT. For example, Herman Miller, the 
furniture manufacturer based in Zeeland, Michigan; the Detroit 
business accelerator, TechTown; and startup Tome, in Royal Oak, 
Michigan, are all focused on the future of connectivity, 
automation, and security with IOT devices.
    As we learn more about how these devices can help consumers 
in their daily lives and how industry is moving to meet 
consumer demand, it is critically important for all 
stakeholders to keep security top of mind.
    The recent cybersecurity attacks against Dyn illustrated 
just how pervasive Internet of Things connected devices are in 
our daily lives while also demonstrating the balance between 
functionality and security. Consumers should not be expected to 
have a degree in computer science to operate the devices they 
purchase to make their lives a little easier.
    While perfect security is an aspirational goal, the 
increased level of attention these issues have received over 
the last decade has caught the attention and focus of 
executives across the country. Basic cyberhygiene, like 
password vigilance, running routine security scans, and 
maintaining your online health, is another component that has 
gained mainstream attention, and I am interested to hear how 
industry is moving forward to address these issues.
    Today's hearing is a good opportunity to learn about what 
happened in the recent attacks and what issues we should be 
focused on moving forward. While some may point to Government 
regulation as the answer--I would strongly encourage caution 
here. This technology moves as fast as the hackers who are 
constantly trying to work around industry designs. Regulations 
have never proven capable of keeping up with that rate of 
change.
    I thank both Chairman Burgess and Chairman Walden for 
holding today's joint hearing and the witnesses for taking the 
time to come and testify this morning.

             Prepared statement of Hon. Frank Pallone, Jr.

    There is truth to the saying--you don't know what you have 
until it's gone. Three weeks ago, a cyberattack on a single 
company--Dyn--left millions of Americans without access to some 
of the most popular Web sites on the Internet.
    This was a disruptive attack coming at a critical time. 
Citizens couldn't get access to major news and weather sites. 
Commerce slowed. Online payment services went down.
    And even though no one knew exactly what was happening, 
many guessed that the Internet itself was under attack. We 
didn't know how much bigger the outage could get or who was 
attacking us.
    Fortunately, we now know that this particular attack was 
not as bad as it could have been. Looking ahead, we still don't 
know if the last attack was a dry run or a road map for a 
larger, more crippling attack. But we do know now just how 
vulnerable our systems can be. As some of the witnesses 
testifying before us today have noted, future attacks could 
target our health care systems or critical infrastructure. 
Everything from the stock market to the energy grid is 
connected in some way.
    That's why I, along with ranking members Eshoo, DeGette, 
and Schakowsky, as well as Congressman McNerney, asked for this 
hearing. I was gratified that our Republican colleagues agreed 
that our committee needs to better understand these 
vulnerabilities.
    So, what exactly happened? It appears a few hackers 
attacked a particularly crucial part of the Internet's 
infrastructure-the domain name service provider, Dyn. This one 
company helped keep a number of major Web sites online. So by 
attacking just one company, these cybercriminals were able to 
knock out a number of others.
    But the way that these attackers went after Dyn is just as 
important as the effect of the attack. The hackers were able to 
turn our devices against us. They hijacked hundreds of 
thousands of seemingly innocent devices that so many consumers 
have in their homes-simple gadgets like digital video recorders 
and webcams.
    The attackers were able to take over these connected 
devices because they could easily find the default passwords 
used by the device manufacturers. Some of these passwords were 
hardwired into the devices so that consumers couldn't change 
these weak passwords even if they wanted to.
    That's why manufacturers of these devices need to take 
steps to address this problem. Better security is obvious. 
Hardwired default passwords are not acceptable.
    And consumers may also have a role to play when it comes to 
device security. Using strong, unique passwords is critical. 
But the recent attack on Dyn makes it clear that consumers 
can't, and shouldn't be expected to fix this problem.
    In fact, most people probably don't even know that their 
devices were used and those devices owners were not the ones 
affected by the attack. Instead, it was millions of Internet 
users across the country who couldn't access many popular Web 
sites who were affected. Because of this dynamic, I am 
concerned that although device owners and manufacturers may be 
in the best place to fix the problems, they have the least 
incentive to do so. That's why, if we are going to really fix 
this, the Government may need to take additional steps to keep 
us safe.
    But before we reach that conclusion, we need to answer some 
tough questions. For instance, will regulations be effective, 
and what tradeoffs are we making if we regulate? What industry, 
if any, should be regulated? And what agency should be charged 
with this responsibility? I am hopeful that today's hearing 
will bring us closer to these important answers-and it's not a 
moment too soon because the next attack can come at any time.
    With that, I'd like to thank all of our witnesses for being 
here today, and I'd like to yield the remaining balance of my 
time to Congressman McNerney.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
                                 
                                 
</pre></body></html>
